Audit Report




OIG-11-042
Audit of the United States Mint’s Fiscal Years 2010 and 2009
Financial Statements


December 3, 2010




Office of
Inspector General
Department of the Treasury
      The Mint strives to ensure that their documents are accessible;
to obtain a Section 508 compliant copy of the Mint’s 2010 Annual Report,
                          see the Mint’s website:

                        http://www.usmint.gov/

                               Also see:

       Web Accessibility and Section 508 Compliance policy page
                                       DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 3, 2010


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Audit of the United States Mint’s Fiscal Years 2010 and
                                   2009 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2010 and 2009. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an audit of the financial statements of the Mint as of
            September 30, 2010 and 2009 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were presented fairly, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control over financial reporting that are
                    considered material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated December 2, 2010 discussing
            certain matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated December 2, 2010, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audits at
(202) 927-5407.

Attachment
2010 annual report
Connecting America through Coins
VISION: To be recognized
as the finest mint
organization in the world
through excellence
in our people, products,
customer service
and workplace.

MISSION: To manufacture
and distribute circulating
coins, precious metals
and collectible coins,
and national medals
to meet the needs
of the United States.
Table of Contents


     The United States Mint at a Glance							                          2
     Director’s Letter									 5
     Organizational Profile								                                    10
     Our Goals
      Effectively Met All Circulating Demand						                     13
      Effectively Managed Bullion and Numismatic Programs				          17
      A Safe, Engaged, Productive and Valued Workforce					            20
      Leadership and Organizational Excellence						                   22
     Management’s Discussion and Analysis
     Message from the Chief Financial Officer						                    24
     Operating Results by Segment
      Circulating Coinage								26
      Bullion Products								31
      Numismatic Products								35
     Transfer to the Treasury General Fund						39
     Performance Goals, Objectives and Results						                   41
     Analysis of Systems, Controls and Legal Compliance					           44
     Limitations of the Financial Statements						                     46
     Independent Auditors’ Report							                               47
     Financial Statements								                                      49
     Notes to the Financial Statements							53
     Required Supplementary Information						69
     Independent Auditors’ Report on Internal Controls					            70
     Independent Auditors’ Report on Compliance and Other Matters			   72
     Appendix I: FY 2010 Coin and Medal Products					                  74




                                            1
                                THE united states MINT AT A GLANCE
                                                                                                      Revenue (dollars in millions)
                                                                                                                                                3,886.7    Seigniorage and Net Income                                      Transfer to the Treasury Ge
                                UNITED STATES MINT                                                    Revenue (dollars in millions)                        (dollars in millions, before protection cost)
                                                                                                                                                                           Revenue by Line of Business                     (dollars in millions)
                                                                                                                                                3,886.7    Seigniorage and Net Income                                      Transfer to the Treasury Ge
                                The United States Mint is the world’s largest                                                         2,912.4              (dollars in1,085.6     (percent
                                                                                                                                                                       millions, before     of total)
                                                                                                                                                                                        protection cost)                  (dollars in millions)
                                                                                                                           2,800.5                                                                                                     825.0
                                coin manufacturer. Our men and women serve                                       2,635.4
                                                                                                                                      2,912.4                         1,085.6                                     Numismatic
                                                                                                                                                                                                                             750.0                 750.0
                                                                                                      2,323.4              2,800.5                          767.9 Bullion           806.4                                              825.0
                                the Nation by manufacturing and distributing                                     2,635.4                                            73.5%
                                                                                                                                                                                                                    10.6%
                                                                                                                                                                                                                             750.0                 750.0
                                                                                                      2,323.4                                                                       806.4
                                circulating coins, precious metals and collectible                                                                          767.9                                                                                          4
                                                                                                                                                                                             501.6
                                coins and national medals to meet the needs                                                                                                                               405.8
                                                                                                                                                                                                                                                           4

                                of the United States. Our vision is to be                                                                                                                    501.6
                                                                                                                                                                                                          405.8       Circulating
                                recognized as the finest mint organization in the                                                                                                                                       15.9%

                                world through excellence in our people, products,                      2006       2007      2008       2009      2010       2006         2007       2008     2009         2010                 2006     2007       2008    2

                                customer service and workplace.                                        2006       2007      2008       2009      2010       2006         2007       2008     2009         2010                 2006     2007       2008    2
                                                  Revenue (dollars in millions)
                                                                                            3,886.7    Seigniorage and Net Income                         Transfer
                                                                                                                                                          Revenue to the Treasury
                                                                                                                                                                   (dollars            General Fund
                                                                                                                                                                            in millions)                                   Revenue (dollars in millions)
                                                                                                       (dollars in millions, before protection cost)                     Revenue
                                                                                                                                                          (dollars in millions)
                                                                                                                                                                                     by Denomination
                                                                                                                                                                                                       2,855.4
                                                                                                      Revenue (dollars in millions)                                                (dollars in millions)
                                CIRCULATING Coinage                     2,912.4                                1,085.6                                    Revenue (dollars in millions)
                                                                                                                                                                                                       2,855.4
                                                                                                                                                                                                                           Revenue (dollars in 557.2
                                                                                                                                                                                                                                        551.5
                                                                                                                                                                                                                                               millions)
                                                                2,800.5                               Revenue (dollars in millions)                                      825.0
                                The United States Mint2,635.4
                                                          is the Nation’s sole                                 1,727.8                                      750.0
                                                                                                                                                                   $1 coin
                                                                                                                                                                                    750.0
                                                                                                                                                                                             1,694.8              One-Cent
                                                                                                                                                                                                                    34.9 514.9          551.5      557.2
                                                  2,323.4                                                                                                           413.5
                                                                                                                          806.4
                                manufacturer of legal tender coinage. The                               767.9
                                                                                                                         1,294.5
                                                                                                                                                                                    948.8    1,694.8
                                                                                                                                                                                                                     Five-Cent                             4
                                                                                                       1,271.9 1,727.8                                                                                                       514.9
                                efficient and effective minting and issuing of                                             1,294.5
                                                                                                                                                                                    948.8    475.0
                                                                                                                                                                                                          388.0
                                                                                                                                                                                                                        17.9
                                                                                                                                                                                                                                                           4
                                                                                                       1,271.9
                                circulation coinage for the Nation to conduct                                                          777.6
                                                                                                                                       501.6
                                                                                                                                                 405.8
                                                                                                                                                            536.6                                                       Dime
                                                                                                                                                 618.2                                                                  88.7
                                trade and commerce is the United States Mint’s                                                         777.6
                                                                                                                                                            536.6        356.1
                                                                                                                                                 618.2
                                highest priority.                                                                                                                        356.1
                                                                                                                                                                                                                   Quarter-Dollar
                                                   2006      2007       2008      2009       2010      2006       2007      2008       2009      2010      2006          2007       2008     2009       2010           63.2
                                                                                                       2006       2007      2008       2009      2010      2006          2007       2008     2009       2010                 2006       2007       2008    2
venue (dollars in millions)                                                                            2006       2007      2008       2009      2010       2006         2007       2008     2009         2010               2006       2007       2008    2
                                        3,886.7    Seigniorage and Net Income                         Transfer to the Treasury General Fund
                                                   (dollars in millions, before protection cost)      (dollars in millions)                                                 Revenue by Program
                                                                                                      Revenue (dollars in millions)                       Revenue (dollars in(dollars
                                                                                                                                                                              millions)
                                                                                                                                                                                       in millions)
                                 BULLION Coins
                              2,912.4                   1,085.6 in millions)
                                                Revenue (dollars
                                                                                                                                                2,855.4
                  2,800.5                                                                                         825.0                                                            557.2
        2,635.4                  The United States Mint is the world’s largest                          750.0               750.0     1,694.8
                                                                                                                                                             American
                                                                                                                                                               Eagle
                                                                                                                                                                     551.5
                                                                                                                                                                                                                    American
323.4                                                              806.4                                                                                                                                             Eagle
                                 producer of gold 767.9
                                                  and silver
                                                        1,727.8
                                                                 bullion coins. The                                                                        514.9Gold
                                                                                                                                                             1,710.8                                                 Silver
                                                                                                                            948.8                                                            440.0                   659.9
                                 bullion program1,271.9
                                                  provides consumers
                                                                  1,294.5
                                                                              a simple and                                             475.0
                                                                                                                                                 388.0                                                  413.1
                                                                             501.6
                                 tangible means to acquire precious metal    777.6
                                                                                   coins.
                                                                                     405.8
                                                                                                       536.6                                                                                                          American
                                 Investors purchase bullion coins for their intrinsic
                                                                                    618.2                                                                                                                              Buffalo
                                                                                                                  356.1                                                                                                 Gold
                                 metal value and the United States Government’s                                                                                                                                        484.7

006     2007      2008           guarantee
                               2009   2010 of each  coin’s2007
                                                 2006       metal2008weight, 2009content
                                                                                    2010               2006       2007      2008       2009      2010

                                 and purity.     2006    2007      2008      2009   2010               2006       2007      2008       2009      2010      2006          2007       2008     2009       2010

                                                                                                                                                                                 Revenue by Program
                                                  Revenue (dollars in millions)                       Revenue (dollars in millions)                                               (dollars in millions)
                                                                            2,855.4
venue (dollars in millions)     NUMISMATIC Products                                                                                                                                                    Commemorative
                                                                                                                 551.5      557.2                                                                          20.1
                                The United States Mint prepares and1,694.8
                                                                      distributes                                                                                                                                  Numismatic
                                                                                                                                                              Recurring
        1,727.8                                                                                        514.9                                                                                                 Sale of Circulating Coins
                                numismatic products for collectors
                                                              948.8
                                                                    and those who                                                      440.0
                                                                                                                                                               191.9                                                   17.7
                  1,294.5
271.9                           desire high-quality versions of the Nation’s                                                                     413.1                                                               American Eagle
                                coinage. Making numismatic products accessible,
                               777.6
                                                                                                                                                                                                                        32.7
                                                  536.6
                                available,
                                     618.2 and affordable to Americans who
                                                        356.1                                                                                                                                                       Ultra High Relief
                                choose to purchase them is the priority of                                                                                                                                               35.1

                                numismatic operations.
                                                                                                                                                                                                             American Buffalo
006     2007      2008         2009     2010       2006       2007      2008       2009      2010      2006       2007      2008       2009      2010                                                             115.6


                                                  Revenue (dollars in millions)                                                                                Seigniorage and Net Income by Line of Business
                                                                                            3,886.7    Seigniorage and Net Income                         Transfer to theinTreasury
                                                                                                                                                                (dollars    millions, General Fund
                                                                                                                                                                                      before protection cost)
                                SEIGNIORAGE and net income                                             (dollars in millions, before protection cost)      (dollars in millions)

                                Seigniorage, the net return from circulating
                                                                          2,912.4                                1,085.6                                       Numismatic
                                                                  2,800.5                                                                                        49.8825.0
                                operations, is the difference
                                                         2,635.4 between the face                                                                           750.0                   750.0
                                                 2,323.4                                                                     806.4
                                                                                                        767.9
                                value and cost of producing coinage. The United
                                                                                                                                                                                                                      Circulating
                                States Mint transfers seigniorage to the Treasury                                                                                                            475.0
                                                                                                                                                                                                          388.0          300.8
                                                                                                                                       501.6
                                General Fund to help finance national debt. Net                                                                   405.8        Bullion
                                income from bullion and numismatic operations                                                                                   55.2

                                can also fund Federal Government programs.
                                                   2006       2007      2008      2009       2010      2006       2007      2008       2009      2010      2006          2007       2008     2009         2010

                                                                                                                       2

                                                                                                      Revenue (dollars in millions)                       Revenue (dollars in millions)
                                                                                                                                                2,855.4
                                                  Revenue (dollars in millions)
                                                                                                                                                                         551.5      557.2
                                                                                                                                      1,694.8
                        Gross Cost (dollars in millions)                                        2010 PERFORMANCE
                                                                     3,480.9
                                                                                                The economic environment during fiscal year (FY) 2010 significantly affected the United
                                                          2,410.8
                                                                                                States Mint’s financial results. Economic uncertainty tends to intensify demand for
                                                1,994.1
                         1,555.5                                                                bullion products while reducing demand for circulating coinage and numismatic products.
                                    1,549.8
                                                                                                Record bullion sales drove revenue growth as both circulating and numismatic revenue
                                                                                                declined. Total revenue neared $3.9 billion, up 33.5 percent. Because the bullion program
                                                                                                is managed to a nominal net margin, revenue growth did not generate higher net returns.
                                                                                                Gross cost increased 44.4 percent to nearly $3.5 billion and seigniorage and net income
                                                                                                fell 19.1 percent to $405.8 million. Lower net returns resulted in reduced funds of $388
                         2006        2007       2008       2009       2010                      million available for transfer to the Treasury General Fund.

                                          Shipments
                                      (millions of coins)
                                                                                                Circulating coin shipments increased 3.7 percent to 5,399 million coins in FY 2010.
                                                                  five-cent
                                                                     359                        While the total volume grew, the composition of shipments shifted toward lower
                                                                         dime
                                                                                                denomination coins, reducing their total value. Circulating revenue fell 20.5 percent
                   one-cent
                    3,487
                                                                         887                    to $618.2 million. The penny, nickel and dime made up 87.7 percent of total shipments,
                                                                                                compared to 72.7 percent in FY 2009. Lower demand for higher denominations and
                                                                          quarter-dollar
                                                                               252
                                                                                                higher metal prices reduced seigniorage 29.7 percent to $300.8 million.
                                                                      $1 coin
                                                                       414




                                            Sales
                                    (thousands of ounces)
                                                                                                Bullion coin demand reached historic highs in FY 2010. The United States Mint sold 35.8
                   American                                          American
                     Eagle                                            Buffalo                   million ounces of gold and silver bullion coins in FY 2010, up 8.2 million ounces
                     Silver                                            Gold
                    33,983                                             409                      (29.7 percent). The bureau sold record volume at higher prices, reflecting increased
                                                                         American               market value for gold and silver. Total bullion revenue reached a record high of $2,855.4
                                                                          Eagle
                                                                           Gold                 million in FY 2010, up $1,160.6 million (68.5 percent). Bullion net income increased
                                                                          1,430
                                                                                                68.8 percent to $55.2 million.




                                            Sales
                                   (thousands of units sold)
                                                                                                FY 2010 was a challenging year for numismatic operations. The United States Mint was
                     Recurring                                                                  unable to offer key gold and silver products because blanks were dedicated to the bullion
                      4,986                                            Ultra High Relief 24
                                                                        American Eagle 18       program to meet unprecedented demand. This negatively affected numismatic sales and
                                                                          American Buffalo 81
                                                                                                customer acquisition and retention. Despite weakened demand, the numismatic sales
                                                                          Commemorative
                                                                              667               shifted toward high price and high margin products. While numismatic sales revenue fell
                                                                        Numismatic Sales
                                                                                                6.1 percent to $413.1 million, numismatic net income and seigniorage increased 21.2
                                                                       of Circulating Coins
                                                                               690
                                                                                                percent to $49.8 million.



me                      Transfer to the Treasury General Fund
ection cost)            (dollars in millions)
                                                                                                2011 Outlook
                                     825.0                                                      In FY 2011, we will remain focused on meeting demand for our products while making
                          750.0                  750.0
                                                                                                progress toward our vision. Economic uncertainty will continue to shape demand for
                                                                                                product-lines. The United States Mint expects circulating volumes in FY 2011 to improve
                                                           475.0
501.6
                                                                       388.0                    slightly upon those of FY 2010. Bullion coin demand is expected to remain strong until
          405.8                                                                                 economic conditions stabilize and investors are drawn toward alternative investments.
                                                                                                For numismatic products, we will focus on improving our customers’ experience and
                                                                                                increasing product availability.
2009      2010            2006       2007        2008      2009        2010


                                                                                                                        3
                        Revenue (dollars in millions)
         2,855.4

                                     551.5       557.2
,694.8
           United States Mint at Philadelphia medallic artist Phebe Hemphill touches up the plaster model
of the Presidential $1 Coin design for John Tyler. Elected and appointed officials, artists and members of the public
        provide input for coin designs and participate on coin design committees. After a design is approved,
   a sculptor-engraver creates a model using traditional methods or newer digital methods. With traditional tools,
         the drawing is sculpted in clay and refined using plaster. The resulting three-dimensional bas-relief
     sculpt is then digitally scanned. Using digital methods, the relief is directly modeled using software tools.
             Either method produces a digital database that meets design and manufacturing guidelines.



                                                         4
                                     Edmund C. Moy
                                     United States Mint Director

To the American People, Members of the United States
Congress, the United States Department of the Treasury,
Our Customers and Our Employees:
This year we delivered on our new promise: “Connecting America through Coins.” Our commemorative coins
honored the Boy Scouts of America and American Veterans Disabled for Life. We finished the Lincoln Bicentennial
One-Cent Coin Series with a coin recognizing the culmination of Abraham Lincoln’s brilliant career, his presidency
in Washington, D.C. We also began producing the new Union Shield penny.
The United States Mint launched the 12-year America the Beautiful Quarters® Program in Fiscal Year (FY) 2010
with four beautiful quarters honoring Hot Springs, Yellowstone, Yosemite and Grand Canyon National Parks. We
continued the Native American $1 Coin series with “Government—the Great Tree of Peace,” brought out four new
Presidential $1 Coins and honored three First Spouses in the First Spouse Gold Coin Program.
We also are proud to have designed and struck two Congressional Gold Medals, one awarded to Women Air Service
Pilots, better known as the WASPs, and one to former U.S. Senator Edward Brooke III.
While a coin’s primary purpose is to facilitate commerce, coins also reinforce America’s core values. From the
great promise of our “e pluribus unum” credo beneath the banner of Liberty, each coin is a piece of our ongoing
American experience, connecting us in an unbroken line to our country’s—and the United States Mint’s—origins
in the Constitution.
Fiscal Year 2010 Results
The state of the American economy affects each of our business lines – circulating coins, bullion and numismatics.
In FY 2010, the United States Mint performed in one of the most difficult operating environments in our 218-year
history. We experienced low first and second quarter demand for circulating coins and record high demand for
bullion. The high volume of gold and silver blanks required to keep up with demand for bullion stymied numismatic
production for most of the fiscal year. Metal costs continued to rise.
Circulating Circulating coin production was at a 46-year low in early FY 2010. But by the third quarter, the
Federal Reserve Bank (FRB) orders began to increase. Shipments, composed mostly of pennies and dimes, tripled
from the first to the third quarters.
Bullion After record demand in FY 2009, demand went higher still in FY 2010, both in ounces sold and revenues
generated. Investors bought 409,000 ounces of American Buffalo gold bullion coins, 382,000 more ounces than
in FY 2009.


                                                        5
They bought 1.43 million ounces of American Eagle gold bullion coins in FY 2010 versus 1.39 million ounces in FY
2009, and bought nearly 34 million ounces of American Eagle silver in FY 2010, 7.8 million more than in FY 2009.
Together, these increases brought bullion revenue to a record $2.86 billion. Throughout the year, the United States
Mint worked to expand gold and silver blank supplies to meet demand. By September 2010, after increasing our
precious metal blank acquisition from 42 million ounces to 51 million ounces, our supply exceeded demand.
Numismatics Because high demand for bullion required we direct our supply of blanks to produce gold and
silver bullion coins, the United States Mint was unable to produce American Eagle Silver Proof coins and other
numismatic products, depressing sales, customer retention and customer satisfaction. As FY 2010 ended, we had
expanded our supply of precious metal blanks and launched 2010 American Eagle Gold Proof products. American
Eagle Silver Proof products went on sale at the end of 2010.
The bottom line in FY 2010 was record total revenue of $3.89 billion but a smaller operating surplus. After reserving
working capital for the first quarter of FY 2011, the transfer to the Treasury General Fund was $388 million.
other Highlights of FY 2010
We made significant improvements in our performance in several key non-financial areas.
Safety Continuing the emphasis on improving the safety of our employees, the United States Mint experienced a
15-year low in illness and injuries, another record year for safety. We already had an admirable total recordable case
rate of 4.10 in FY 2008 and 2.50 in FY 2009, but achieved a best in class 2.29 in FY 2010.
Green Initiatives We reduced our greenhouse gas emissions by 27 percent and began purchasing 100 percent
of energy from solar and wind sources at the United States Mint at Denver. We embraced the goal of Energy Star
certification for all our facilities and earned the Bronze Award in the 2010 Federal Electronics Challenge.
Labor Relations After lengthy negotiations, management and labor agreed to a new five-year labor contract.
The Seventh National Agreement with the American Federation of Government Employees (AFGE) United States
Mint Council represents management and labor working together for the best possible result.
2006 -2011
Because my term expires August of 2011, this is my last annual report as Director of the United States Mint. Serving
a full five-year term has given me a rare opportunity to address challenges requiring long-term commitment to
resolve. I hope that I have been a good steward of that opportunity. I will let time and others judge my tenure, but I
want to share the accomplishments that have given me the most satisfaction and briefly list additional initiatives well
on their way that will come to fruition after my term is done.
People Our most important asset is people. When our employees consistently rate the United States Mint one of
the worst places in government to work, as they have since 2003, little can be accomplished until morale improves.
After meeting with every United States Mint employee on every shift at every location, I led my management team
and labor representatives through a process to develop a plan to change the culture of our organization:
• D
   eveloped clear vision and mission statements, strategic goals and organizational values to be communicated and
  modeled to all employees;
• Aligned performance plans, metrics, budget and incentives to the vision, mission, strategic goals and values;
• R
   ecruited new senior leaders to lead change, trained and coached employees to meet performance targets,
  increased accountability for performance, offered greater transparency to our stakeholders and consistently
  communicated organizational performance to all employees.




                                                          6
United States Mint Director Edmund C. Moy is pictured with senior leaders at the United States Treasury building. They
are pictured under the statue of Alexander Hamilton, who served as the first Secretary of the Treasury from 1789 to 1795.
Front row, left to right: David M. Croft, Denver Plant Manager; Dennis O’Connor, Chief of Protection; Goutam Kundu,
Chief Information Officer; Richard Peterson, Associate Director of Manufacturing; Ellen McCullom, West Point Plant
Manager; Patrick M. McAfee, Director of $1 Coin Programs; Daniel P. Shaver, Chief Counsel; Michael Stojsavljevich,
Chief Strategy Officer; Andrew D. Brunhart, Deputy Director; Cliff Northup, Director of Legislative Affairs
Second row, left to right: Eric Anderson, Executive Secretariat; Marc Landry, Philadelphia Plant Manager; Thomas
Jurkowsky, Director of Public Affairs; B. B. Craig, Associate Director of Sales and Marketing; Patricia M. Greiner, Chief
Financial Officer; Daniel Riordan, Associate Director of Workforce Solutions
Not pictured: Larry Eckerman, San Francisco Plant Manager


This initiative to change the culture is a 10-year journey, and the first five will be the most difficult. I am pleased
that our own internal surveys, which mirror the government-wide annual survey, have recently begun to indicate
improvement, including more positive responses to 27 out of 33 recurring questions. We look forward to continued
improvements resulting from our culture change efforts and for those gains to be reflected in the 2011 Federal
Employee Viewpoint Survey results. I am confident our employees will affirm that the United States Mint is one
of the better places to work in the federal government.
Products As a collector myself, I knew when I accepted the job of Director that the United States Mint was
offering a confusing proliferation of numismatic products. I observed that there was no pipeline of interesting
numismatic products on the horizon, that there had been a decline in quality of our circulating coins and that a
higher standard for artistic excellence and design was needed.
• P ortfolio – At my direction, the United States Mint eliminated more than 300 unpopular products from our
   portfolio of 550. This opened up production capacity to make our core products, such as annual sets, available for
   purchase all year round, thus appealing to non-traditional customers like special occasion gift givers.
• Capacity – Additional production capacity allowed us to pioneer new coins, such as the 2009 Ultra High Relief
   Double Eagle Gold Coin instead of relying on new ways to package and combine existing coins to boost sales.


                                                            7
• A
   rtistic Excellence – I have articulated a vision for artistic excellence in coin and medal design. The next phase
   is working with all our design stakeholders to develop a comprehensive artistic excellence roadmap and begin
   implementation.
• Relief – Believing that the flattening of the obverses of the penny and quarter extended die life at the expense
   of beauty, we digitally re-mastered them for a more faithful execution of the original designs.
• Quality – We have made major investments in visual inspection systems, digital design, packaging and quality
   control that have significantly improved the quality of our coins. We now measure coin quality with a
   comprehensive suite of metrics.
Customer Service and Culture Change During most of the past decade, declining customer service
satisfaction has been the norm, and we at the United States Mint lacked the tools and passion to turn the situation
around. A culture change plan has given us both. With it, we have:
•  Cut order fulfillment time in half.
•  Reduced call center complaints from our customers by raising performance standards for our fulfillment center.
•  Launched a Facebook site and used Twitter to broaden our interaction and attract new customers.
•  Sent returned products to the facility where they originated for quality analysis and corrective action.
•  Increased transparency to our customers on the pricing of our products, especially precious metal.
•  Solved the biggest factor negatively affecting our customer service rating by more than tripling the acquisition
    of precious metal planchets (especially silver), so that we could stop diverting planchets to bullion production
    and make popular products, like the American Eagle Silver.
• Refreshed our brand, giving the United States Mint a more customer-friendly and identifiable look on our website,
    packaging, advertising and annual report.
Coming Attractions Projects already begun that will be completed after my term:
• Modernization of the visitor tour at the United States Mint at Philadelphia.
• Redesign of our two retail locations in Washington, D.C.: one at Headquarters and one at Union Station.
• Inauguration of a United States Mint and Smithsonian Institution’s National Museum of American History
  traveling exhibition of coins.
• Total customer-friendly redesign of our retail website to debut in FY 2012.
• Streamlined, easier, faster customer service satisfaction survey.
Workplace It was my aim to improve the historically significant United States Mint by connecting the good
intentions of government with a business-like ability to deliver. To that end, we have:
• Developed essential management tools, like monthly profit and loss statements, balance sheets and statements of
   cash flow, as well as annual operational and financial performance metrics. These tools help the management team
   understand and track our performance, a key to accomplishing our vision to become recognized as the finest mint
   organization in the world.
• Established monthly management meetings to review progress toward our operational and financial performance
   metrics, resulting in greater accountability and improved performance.
• Improved the United States Mint workplace safety record from 4.10 incidents per 100 full-time workers
   in FY 2008 to 2.29 in FY 2010, creating a safer workplace for our employees.




                                                          8
• Improved our financial audits from qualified with material weaknesses to qualified without material weaknesses,
   creating greater confidence in our stakeholders.
• Replaced an antiquated cost allocation model with one that spreads overhead costs on the basis of the effort to
   make each coin.
• Implemented a disciplined budgeting system that holds us accountable for adhering to deadlines, resulting in
   greater financial accountability.
• Developed a more accurate circulating coin demand forecasting model that enables us to plan production more
   effectively, saving the taxpayers money.
• Negotiated a five-year labor agreement with the AFGE that is good for both management and labor, resulting in
   better labor-management relations.
The bottom line is the United States Mint delivers more value to the taxpayer. We are a much more nimble organi-
zation. Throughout the tumult of FY 2010, we were able to effectively manage huge swings in our circulating and
bullion coin volumes. Additionally, we were able to squeeze all of 2010’s numismatic production into nine months
so that we could produce sufficient 2011 core products inventory to put them on sale beginning in January 2011.
Thank You As a young son of Chinese immigrants working in my parent’s restaurant, I was fascinated with the
coins in our cash register that had different designs, even though they were the same denomination. I never imagined
as I began my Lincoln penny collection at the age of ten that 40 years later, I would have the privilege of being the
38th Director of the United States Mint. It is a story that is not unique in America but makes America unique in
the world. To rise from young coin collector to Director and become the steward of the American institution that
produces our coins – a historically important extension of our national identity – has been more meaningful to me
than words can express.
I want to thank President George W. Bush for nominating me; the United States Senate for confirming me; President
Barack Obama for allowing me to fulfill the balance of my term; Treasury Secretaries John Snow, Hank Paulson,
and Timothy Geithner for their confidence in me; the employees of the United States Mint for their efforts, patience
and support; and the United States Mint’s customers for their loyalty.
Most of all, I am grateful and feel blessed to have been born an American, to have benefited from the opportunities
derived from our Nation’s greatness, and given the chance through public service to give back to the American
people who make it all possible.


Sincerely,




Edmund C. Moy
Director
United States Mint




                                                          9
Organizational Profile

Established in 1792, the United States Mint is the world’s largest coin manufacturer. Our vision is to be recognized
as the finest mint organization in the world through excellence in our people, products, customer service and work-
place. The men and women of the United States Mint serve the Nation by manufacturing and distributing circulating
coins, precious metals and collectible coins, and National medals to meet the needs of the United States.
The United States Mint is committed to achieving efficient operations and providing value to the American people.
Since Fiscal Year (FY) 1996, the United States Mint has operated under the United States Mint’s Public Enterprise
Fund (PEF). As authorized by Public Law 104-52 (codified at 31 U.S.C. § 5136), the PEF enables the United States
Mint to operate without an appropriation. We generate revenue through the sale of circulating coins to the Federal
Reserve Banks (FRB), numismatic products to the public and bullion coins to authorized purchasers. Money in
excess of anticipated needs of the PEF is transferred to the United States Treasury General Fund.
The United States Mint operates six facilities and employs approximately 1,800 employees across the United States.
Each facility performs unique functions critical to our overall operations. Manufacturing facilities in Philadelphia,
Pennsylvania, and Denver, Colorado, produce coins of all denominations for circulation. Both facilities also produce
dies for striking coins. All sculpting and engraving of circulating and numismatic coin and medal designs is
performed in Philadelphia. Production of numismatic and bullion products is primarily performed at facilities in
San Francisco, California, and West Point, New York. All four production facilities produce commemorative coins
as authorized by Federal laws. The United States Bullion Depository at Fort Knox, stores and safeguards United
States gold and silver bullion reserves. Administrative and oversight functions are performed at our Headquarters
in Washington, D.C.
Primary Responsibilities
The United States Mint’s primary responsibilities include the following:
CIRCULATING The United States Mint is responsible for enabling commerce by minting and issuing circulating
coins in amounts that the Secretary of the Treasury determines are necessary to meet the needs of the United States.
We mint and issue circulating coins to the FRB for distribution to the Nation’s financial institutions. Commercial
banks and other financial institutions then place coins into circulation to meet the demand of retailers and the public.
Financial institutions can return coins to the FRB when they have more than necessary to meet demand. The United
States Mint issues circulating coins to the FRB at face value. The net return, known as seigniorage, is the differ-
ence between the face value and the cost of producing circulating coinage. Seigniorage is transferred to the Treasury
General Fund to help finance the national debt.
BULLION The United States Mint manufactures and issues gold, silver and platinum bullion coins through a net-
work of authorized purchasers, which include precious metal and coin dealers, brokerage companies and participating
banks. Bullion coins provide investors a simple and tangible means to own coins whose weight, content and purity are
guaranteed by the United States Government. Coins are available to the general public through authorized purchasers.
Any net proceeds from the sales of bullion products are transferred to the Treasury General Fund to help reduce the
deficit or fund current Federal Government programs or operations.




                                                          10
NUMISMATIC The United States Mint prepares and distributes numismatic items, including proof and uncirculated
coins, coin sets, commemorative coins and medal products. These products are manufactured and specially packaged
for collectors and other members of the public who desire high-quality versions of the Nation’s coinage as gifts or
mementos. Through commemorative coin programs passed by Congress and approved by the President, the United
States officially honors people, places, and events. By law, the price of the commemorative coin includes a surcharge
that is authorized to be paid to recipient organizations. Customers can purchase numismatic coin and medal products
through the United States Mint website, by phone order or by mail order. Public points of sale are also available
at the United States Mint facilities at Philadelphia, Denver and Washington, D.C. and a United States Mint kiosk
in Union Station in Washington, D.C. The objective of the United States Mint numismatic program is to make
numismatic products accessible, available and affordable to the American public. We make every effort to control
costs and keep the prices of numismatic items as low as practicable. Any net proceeds from the sales of numismatic
products are transferred to the Treasury General Fund to help reduce the deficit or fund current Federal Government
programs or operations.
MEDALS As part of the numismatic program, the United States Mint prepares and strikes National and other medals.
Congressional Gold Medals are prestigious awards authorized by Congress and approved by the President to honor
specific individuals in recognition of their achievements and contributions. The Congressional Gold Medal is widely
considered the highest honor the Nation can bestow. The United States Mint also strikes, and makes available for
sale to the public, bronze duplicates of these medals, as well as “list” medals, which are often a part of continuing
medal series, such as the Presidents of the United States and Historic Buildings of the United States.
PROTECTION The United States Mint is responsible for protecting over $320 billion in United States assets stored
in our facilities. The Protection Department safeguards non-United States Mint assets in our custody, including gold
and silver bullion reserves held at the United States Bullion Depository at Fort Knox, as well as United States Mint
assets, such as our products, employees, facilities and equipment.




                                                         11
 United States Mint at Philadelphia employee Gregory Hawes, who works in the Quality Control Division,
checks the specifications of the dies used to mint coins. Each die must conform to all official specifications,
        including weight and size, placement of design and text. After the die is approved, it is sent
                 to one of the United States Mint facilities, which will use it to mint coins.




                                                      12
GOAL 1: Effectively met all circulating demand

As the Nation’s sole manufacturer of legal tender coinage, the efficient and effective production and distribution of
circulation coinage used to conduct trade and commerce is the United States Mint’s highest priority. This involves
administering several circulating commemorative coin programs, which are mandated by law.
Effectively Meeting Demand in the Current Operating Environment
Our circulating coin production fell to a historic 46-year low during the first six months of Fiscal Year (FY) 2010.
Starting in 2009, commercial banks and other financial institutions curtailed orders and returned excess coins to the
Federal Reserve Banks (FRB). In response, the FRB decreased orders for newly minted coins and used accumulated
coin inventory to meet demand during the first half of FY 2010. By the third quarter, the FRB had reduced its inven-
tory and increased orders for newly minted coins. Shipments to the FRB in the second half of FY 2010 were more
than triple total shipments in the first half of the fiscal year.
At the start of FY 2010, the prospect of continued low
                                                                        Total Circulating Coin Production (coins in millions)
coin demand prompted the United States Mint to extend
                                                               30,000
cost-saving measures begun in 2009. We opted not to
renew appointments for temporary personnel and insti-          25,000

tuted an organization-wide hiring freeze. We suspended
                                                               20,000
all non-essential capital investments in circulating
operations to cut cash outflow during a time of reduced        15,000

cash inflow.
                                                               10,000

Even with these measures, the costs of coin production
                                                                  5,000
continued to increase because of escalating metal mar-
ket prices. In FY 2010, market prices for copper, nickel              0
                                                                         1970  1980      1990      2000        2010
and zinc climbed from five-year lows of FY 2009 to
levels almost as high as those experienced in FY 2007. This increased expenses for fabricated blanks and strip
for circulating coin production and raised unit costs for all denominations.
To address rising metal costs, the United States Mint continued to work with the Department of the Treasury and
Congress to examine legislative options for changing the composition of circulating coinage to less expensive
materials. This could reduce our production expenses and ultimately generate significant taxpayer savings without
compromising the utility of coins.
Planning for the Future
Facing this challenging year of volatile production activity, the United States Mint began reevaluating future coin
demand, capacity requirements and long-term efficiency.
In the spring of 2010, we conducted a comprehensive economic analysis of future coin demand and assessed the
implications for equipment and labor requirements. Economic
models indicated the United States Mint should have the ca-             Shipments to the FRB (coins in millions)
                                                                 900
pacity to produce nine to ten billion circulating coins annually 800
through 2015. Accordingly, the United States Mint developed      700
                                                                 600
preliminary plans to resize circulating equipment capacity. We   500
                                                                 400
identified 32 presses we will retire and not replace starting in 300
FY 2013. This will generate savings of approximately $32         200
                                                                 100
million, spread over three years.                                  0
                                                                                                                                          May 10




                                                                                                                                                                     Aug 10
                                                                                    Nov 09

                                                                                             Dec 09




                                                                                                                        Mar 10




                                                                                                                                                                              Sep 10
                                                                                                               Feb 10




                                                                                                                                                   Jun 10
                                                                                                                                 Apr 10
                                                                           Oct 09




                                                                                                      Jan 10




                                                                                                                                                            Jul 10




                                                          13
In the second half of this year, we rapidly adapted to the increase in demand by implementing short-term solutions,
such as controlling overtime usage and utilizing temporary employees. We recognize that a long-term strategy is
necessary to more effectively deal with future fluctuations in demand.
Circulating Commemorative Coin Programs
For the past few years, effectively meeting circulating demand has involved administering multiple circulating
commemorative coin programs.
America the Beautiful Quarters® Program Beginning in 2010 through at least 2021, the United
States Mint will mint and issue commemorative quarter-dollar coins honoring national parks and other national sites,
in accordance with the America’s Beautiful National Parks Quarter Dollar Coin Act of 2008 (Public Law 110-456).
This program honors national parks and sites in the order in which they were first established. Similar to the
issuance of coins under the 50 State Quarters Program, quarter-dollar coins featuring five different coin designs
will be issued each calendar year of this program.
In FY 2010, we issued the first four quarters in the America the Beautiful Quarters Program, honoring Hot Springs
National Park (Arkansas), Yellowstone National Park (Wyoming), Yosemite National Park (California) and Grand
Canyon National Park (Arizona). The United States Mint issued 172.9 million America the Beautiful quarters for
circulation in FY 2010, which generated $43.5 million in revenue and $21.4 million in seigniorage.
$1 Coin Programs The United States Mint continued America’s tribute to the Nation’s Presidents in FY 2010,
issuing four Presidential $1 Coins featuring Presidents Zachary Taylor, Millard Fillmore, Franklin Pierce and James
Buchanan. We also issued the 2010 Native American $1 Coin with a reverse design commemorating the Haudeno-
saunee (People of the Longhouse) Confederation, also known as the Iroquois Confederacy. This confederacy,
created before the Revolutionary War, was one of the most famous and powerful Native American leagues.
The Presidential $1 Coin Act of 2005 mandates the United States Mint identify, analyze and overcome barriers to
the robust circulation of $1 coins. Likewise, the Native American $1 Coin Act of 2007 requires the United States
Mint to carry out an aggressive, cost-effective, continuous campaign to encourage commercial enterprises to accept
and dispense Native American $1 Coins. Promoting circulation of $1 coins offers potential savings for the American
taxpayer but continues to be a challenge for the United States Mint. This year, we successfully partnered with Walt
Disney World Resorts on a pilot program in Florida, Whole Foods Markets in North Carolina and the Army and Air
Force Exchange Service (AAFES) stores at four military bases, to promote usage of the coin.
Direct Ship We continued the Circulating $1 Coin Direct Ship Program throughout FY 2010. Initiated in June
2008, the Direct Ship Program provides $1 coins for sale directly to banks, small retailers, and the public in smaller
volumes than available through traditional FRB distribution. In FY 2010, we distributed 90.7 million $1 coins (56.9
million Native American $1 coins and 33.8 million Presidential $1 Coins) through the Direct Ship Program, up
6.5 percent from 85.2 million $1 coins distributed in FY 2009.
Bulk Ship The United States Mint initiated a Bulk Ship Program in August 2009 to offer another way for interested
customers to order $1 coins in larger quantities. This program provides banks and larger retailers the opportunity to
purchase a minimum of $140,000 in $1 coins directly from the United States Mint. In FY 2010, the first full fiscal
year of the program, we shipped 3.4 million $1 coins (1.6 million Native American $1 Coins and 1.8 million
Presidential $1 Coins) through the Bulk Ship Program.




                                                          14
2009 District of Columbia and U.S. Territories Quarters Program In December 2009,
the United States Mint concluded the 2009 District of Columbia and U.S. Territories Quarters Program, a one-year
initiative honoring the District of Columbia and the five U.S. territories. In FY 2009, we minted and issued the first
five coins to honor the District of Columbia, the Commonwealth of Puerto Rico, Guam, American Samoa and the
United States Virgin Islands. We issued the final coin honoring the Commonwealth of the Northern Mariana Islands
in FY 2010.
Through the 2009 District of Columbia and U.S. Territories Quarters Program, the United States Mint issued 511.6
million quarters for circulation (432.5 million in FY 2009 and 79.1 million in FY 2010). This generated a total of
$127.9 million in revenue and $57.2 million in seigniorage.
2009 Lincoln Bicentennial One-Cent Coin Program In November 2009, we issued the final
of four one-cent coins honoring the bicentennial of President Lincoln’s birth and the 100th anniversary of the first
issuance of the Lincoln penny. Each reverse design represents a major aspect of President Lincoln’s life. The final
coin honored Lincoln’s Presidency in Washington, D.C. The United States Mint issued a total of 2.2 billion Lincoln
Bicentennial One-Cent Coins for circulation (1.9 billion in FY 2009 and 0.3 billion in FY 2010), generating $22.5
million in revenue.
Upon conclusion of the 2009 program, the United States Mint began production of a new penny, released in
February 2010. This new one-cent coin will circulate from this year forward, replacing the penny with the Lincoln
Memorial on the reverse. As specified by the Presidential $1 Coin Act of 2005, the reverse design of the 2010
one-cent coin bears an image emblematic of President Lincoln’s preservation of the United States as a single and
united country. The reverse features a union shield, a National symbol that dates back to the 1780s. The United
States Mint issued 3.0 billion one-cent coins bearing the new design in FY 2010, generating $30.3 million in revenue.


           America the Beautiful Quarter Shipments by Design                                $1 Coins Issued to Circulation by Channel
                          (coins in millions)                                                      (percentage of total issued)

                                                                                        Shipped to
              Yosemite                                Grand Canyon                       the FRB
                41.7                                      39.6                           77.1%                                   Bulk Ship
                                                                                                                                  0.8%
                                                                                                                                     Coin
                                                                                                                                   Machines
                                                                                                                                    0.2%


         Hot Springs                                    Yellowstone                                                               Direct Ship
            46.4                                            45.2                                                                    21.9%




                  District of Columbia and U.S. Territories
                        Quarter Shipments by Design                                 Lincoln Bicentennial One-Cent Coin Shipments by Design
                               (coins in millions)                                                      (coins in billions)

                                                     Commonwealth
                                                                                     Formative Years
     District of Columbia                             of Puerto Rico                                                                 Presidency
                                                                                        in Indiana
             142.0                                         94.1                                                                  in Washington, DC
                                                                                            0.7
                                                                                                                                        0.6




                                                           American Samoa
                                                                69.7

              Northern
              Mariana                                                                Birth and Early                           Professional Life
               Islands                                                           Childhood in Kentucky                            in Illinois
                63.3                                                                       0.6                                       0.3
                                             U.S.Virgin Islands
                             Guam                   71.9
                             70.6




                                                                            15
United States Mint at Denver employee Vince Varela is attaching a coin coil on an uncoiler, which feeds metal
     strip into a blanking press. Most U.S. coin production starts with the arrival of coils (rolled-up strips
  of flat metal). Coils are about a foot wide, 1,500 feet long, and about as thick as the final coin thickness.
   Each coil weighs close to 6,000 pounds. A coil is hoisted onto a wheel that feeds into a blanking press,
         which punches out round, plain-surfaced disks. Each blank is cut larger than the final coin size
        to allow for the formation of the rim, but the blank’s weight is the same as the final coin weight.




                                                      16
GOAL 2: Effectively managed bullion
and numismatic programs

The United States Mint provides bullion coins, collectible coins and National medals through our bullion and
numismatic programs. Most of our coin and medal programs are authorized by specific laws. Each program serves
a different overall purpose as designated by its authorizing legislation. We continually strive for efficient coin
manufacturing and sales operations. Greater efficiency benefits the American public as a whole, as well as our
specific customers.
To effectively manage bullion and numismatic programs, the United States Mint must efficiently utilize our people,
equipment and other assets to manufacture and provide coin products in the quality and quantity the American
public demands. This often requires allocating available resources between and within bullion and numismatic
programs. Supply chains for programs and products often overlap. This can hinder our ability to effectively meet
demand for all bullion and numismatic products in desired quantities. We prioritize resource allocation based on
statutory requirements.
Effectively Managing the Bullion Program
The United States Mint’s bullion program provides consumers a simple and tangible means to acquire precious
metal coins from authorized dealers as part of an investment portfolio. Investors purchase bullion coins for their
intrinsic metal value and the United States Government’s guarantee of each coin’s metal weight, content and purity.
Bullion demand reached historic highs in terms of ounces sold and revenues generated in FY 2010. The United
States Mint procures precious metal blanks from suppliers to be stamped into bullion coins at the United States Mint
at West Point. Unprecedented volumes began stressing our suppliers and bullion production capacity in FY 2009.
We diverted all precious metal planchets to legislatively mandated bullion coin production. However, we were forced
to set standard allocation and ordering limits so that these products were equitably distributed among authorized
purchasers. Throughout FY 2010, the United States Mint undertook significant efforts to expand raw materials
supply and enhance productivity to meet escalating demand.
Expanding Bullion Raw Materials Supply The United States Mint worked extensively with our
fabricators to increase the quantity of precious metal blanks they supplied us in FY 2010. We revised delivery
schedules to provide raw material gold and silver to
fabricators at the quantity and frequency that best fit their                   Gold and Silver Blank Supply
                                                                                    (blanks in millions)
production schedules. Level loading material allowed                6,500
fabricators to more efficiently use resources and increase          6,000
                                                                    5,500
productivity. We identified a new silver blank fabricator
                                                                    5,000
that began delivering blanks in late FY 2010 and                    4,500
continued to pursue additional suppliers. As a result               4,000
                                                                    3,500
of these efforts, vendors increased the average monthly
                                                                    3,000
supply of all gold and silver blanks by 1.5 million ounces          2,500
(56 percent) from 2.6 million ounces in FY 2009 to 4.1              2,000
                                                                    1,500
million ounces in FY 2010.
                                                                 1,000
                                                                   500
                                                                                            Apr 08




                                                                                                                                Apr 09




                                                                                                                                                                    Apr 10
                                                                         Oct 07




                                                                                                              Oct 08




                                                                                                                                                  Oct 09
                                                                                  Jan 08




                                                                                                                       Jan 09




                                                                                                                                                           Jan 10
                                                                                                     Jul 08




                                                                                                                                         Jul 09




                                                                                                                                                                             Jul 10




                                                                                           Quantity of Blanks Received from Fabricators
                                                                                           12 Month Moving Average




                                                         17
Enhanced Bullion Productivity The United States Mint West Point realized higher output without
incurring significant costs in FY 2010 through several productivity and efficiency enhancements. We automated coin
encapsulation and packaging processes, which increased throughput and reduced labor requirements. Through the
United States Mint’s on-the-job training program, the workforce at the United States Mint at West Point improved
skills to handle more areas of responsibility. This enabled the facility to readily move employees where they were
needed. The United States Mint also coordinated with fabricators to increase and level load blank deliveries. This
allowed our West Point facility to maintain continuous assaying, inspection and coin production. These efforts
significantly improved productivity. Output increased 23 percent from 175 ounces per labor hour in FY 2009 to 215
ounces per labor hour in FY 2010.
Meeting Bullion Demand Through expanded supply and enhanced productivity, the United States Mint
achieved record bullion production volumes necessary to fulfill demand for gold bullion coins. As demand remained
strong, we removed order limits and fully satisfied demand for all 2010 American Eagle gold bullion products
through the close of FY 2010.
The United States Mint maintained standard allocation and ordering limits on American Eagle silver one-ounce
bullion coins through most of FY 2010. By August 2010, we had sufficiently expanded supply to remove order
limits and fully satisfy demand for silver bullion coins.
Effectively Managing the Numismatic Program
Our numismatic program provides collectors and other members of the public high-quality versions of the Nation’s
coinage. Numismatic consumers select products for their aesthetic, historic, nationalist, educational, resale or other
collectable value as well as their intrinsic metal value.
FY 2010 was a challenging year for our numismatic operations. The popularity of bullion products stretched our
resources as we tried to keep up with demand. Because the United States Mint must first meet demand for bullion
coins, the supply of numismatic products that require the same blanks suffered. The United States Mint was unable
to offer some key products, such as the American Eagle Silver Proof Coin, in FY 2010 because blanks were diverted
to bullion coin production. This negatively affected numismatic sales as well as customer retention and satisfaction.
The slow pace of the economic recovery also likely curtailed sales as some customers refrained from purchasing
collectibles and other non-essential goods.
Numismatic Product Availability Survey                                                 Top Selling Numismatic Products
                                                                                              (units sold in thousands)
results indicate that customer satisfaction declined largely
because numismatic versions of American Eagle products                       2009 Uncirculated Coin Set                          785

were unavailable. We addressed product availability by                                   2010 Proof Set                    594
expanding precious metal blank supply. By the close of                  2010 Presidential $1 Coin Proof                    451
FY 2010, expanded supply was sufficient to meet bullion                      2010 Uncirculated Coin Set               402
demand and redirect a portion of both gold and silver
                                                                                         2009 Proof Set              385
blanks for numismatic product production. We launched
                                                                                   2010 Silver Proof Set        324
2010 American Eagle Gold Proof Coin products in
                                                                   Lincoln Presidency in Washington DC          267
October 2010 and the 2010 American Eagle Silver Proof                                     One Cent Roll
                                                                            2010 Boy Scouts of America
Coin in November 2010. Releasing these popular                             Centennial Proof Silver Dollar
                                                                                                               245

products should boost sales and improve customer                                   2009 Silver Proof Set      212

satisfaction in FY 2011.                                               2009 Lincoln One Cent Proof Set       204




                                                           18
At the close of FY 2010, our manufacturing facilities began gearing up to provide our most popular numismatic
products earlier in the 2011 calendar year. We will release the 2011 United States Mint annual sets in January 2011.
This is the first time these core products will be available for sale so early in the calendar year. Our customers
often purchase products because of the significance of the year minted on each coin or medal. Making products
available in January ensures customers can obtain them throughout the calendar year to commemorate anniversaries,
birthdays, reunions and other important occassions. We expect this initiative to improve sales and customer
satisfaction in FY 2011.
The Numismatic Customer Experience To improve our current customers’ experience, we cut the
amount of time it takes to fill an order in half. We also raised our call center performance standards and redesigned
both catalog and public information web pages to make them easier to use. We will continue to modernize our
processes so ordering products and tracking delivery are easy, efficient and seamless, making us consistent with
prominent consumer-oriented retailers.
As the America the Beautiful quarters debuted in the spring of 2010, we launched a specialized Website dedicated
to the program. The America the Beautiful Quarters Program Website enhances customer online experience by
providing more extensive information about the individual coins and products and the national parks and historic
sites they commemorate.
The United States Mint is also modernizing customer relations by communicating to people in diverse ways.
We launched Facebook and Twitter sites in July 2010 to broaden customer interaction. We are using new media
principally to disseminate product and organizational information to current and potential numismatic customers,
as well as to obtain direct customer feedback. By the close of FY 2010, we recorded 5,010 “likes” on Facebook and
had 893 followers on Twitter.
As we look toward the future, we anticipate modernizing our customer interaction to improve their experience and
our efficiency. The United States Mint, first and foremost, exists to meet circulating coin demand, but numismatic
programs are an important part of how we accomplish our promise of Connecting America through Coins. As we
improve our numismatic program, we expect to better meet customer expectations and demand.




                                                          19
   GOAL 3: A safe, engaged, productive
   and valued workforce

   The United States Mint endeavors to sustain a well-trained and committed workforce, making it the employer of
   choice for current and future employees.
   A Safe Workforce
   The United States Mint experienced another record                                   Rate of Injury and Illness Cases per 100 Full-Time Workers
   safety    year in FYManufacturing
   United States Mint
                            2010, reducing
                                        Industry
                                                  theFabricated
                                                       incidents      of
                                                                Metal Industry    15

   injuries    and illness below last year’s 14-year low.
            8.00
                            7.60
   Our total recordable          case rate7.20fell to 2.29 recordable             12

   injuries and illness
       6.30
                       6.00
                               per 100 full-time workers, the
                                       5.60                                        9
   lowest rate since we began             reporting the figure in
   FY 1996. We also significantly reduced         4.10      the number             6
                                  3.84
   of work-related
  3.42            3.45    injuries or illnesses resulting in lost
   workdays. Lost time accidents fell to 11 in 2.50             FY 2010            3

   from 13 in FY 2009.
                                                                                   0
    For2005 the past two       2006years, ensuring
                                                2007          employee
                                                                  2008          safety
                                                                                  2009 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010

    has been  at time a  priority at the United States Mint. We
Source of Industry Averages: Bureau of Labor Statistics – 2008 and 2009 figures
not available         of publish

    developed several programs and policies to protect workers and make the workplace environment, as well as
    common work practices, safer. In FY 2010, our executives continued meeting monthly to discuss injury and illness
    rates, any incidents and corrective actions. These efforts included discussing initiatives to reduce risk and prevent
    future incidents.
   Many of our facilities are housed in historic, aging structures. In FY 2010, we conducted safety audits at each
   facility to identify potential issues. In response to findings, we made physical improvements at all of our production
   facilities. These improvements included renovations and restorations, fire suppression, life-safety upgrades
   and ergonomic changes.
   The United States Mint Police protect both our physical assets, such as coinage and equipment, as well as our
   employees. The force receives regular training and participates in national-level exercises when appropriate. This
   year, the United States Mint Police and Information Technology teams coordinated the bureau’s participation in a
   national-level Continuity of Operations (COOP) exercise. Additionally, we are implementing a modern security
   management system that will link all United States Mint facilities and enable us to monitor access control and
   alarms from one central location.
   An Engaged and Productive Workforce
   The United States Mint is taking a proactive stance to cultivate an engaged and productive workforce now and into
   the future. We created the Manufacturer Certification and Apprenticeship Program (MCAP), a structured training
   program to maintain the high level of skill and competency required to manufacture coins and dies. MCAP improves
   workforce flexibility by providing training and development for employees who want to acquire the experience,
   knowledge and skills necessary to perform each step of the coin and die manufacturing process. Developing a
   cross-trained workforce that understands multiple manufacturing functions provides the United States Mint flexibility
   necessary to accommodate changing production demands. It ensures that we maintain a workforce equipped to
   perform mission-critical manufacturing occupations. MCAP also provides upward mobility opportunities for our




                                                                                 20
employees and is a registered apprenticeship program with the Department of Labor. Offering MCAP along with
other opportunities helped the United States Mint to jump from 203 of 216 in 2009 to 159 of 223 in 2010 in the
Work Training and Development category of the Best Places to Work in the Federal Government rankings.
To foster excellence in all our employees, the United States Mint is developing an organization-wide Employee
Development Program (EDP). EDP aims to strengthen core organizational skills and competencies that support job
performance. The program is expected to be available for employees in 2011. It will provide multiple levels
of training in key organizational subjects. We are designing EDP courses to address our employees’ requests for
cross-functional training and self-development opportunities. Establishing and promoting programs that engage
employees and improve skills is vital to ensuring we meet our mission through excellence in our people.
A Valued Workforce
Employee satisfaction is critical for us to perform our mission and achieve our vision. Recent external and internal
surveys indicate our employees perceive significant deficiencies in the United States Mint’s work environment
and leadership.
The United States Office of Personnel Management (OPM) administers an annual Federal Employee Viewpoint
Survey (EVS) to randomly selected, full-time, permanent employees of the Federal Government. The survey
measures employees’ perceptions regarding how effectively their agency manages its workforce. EVS results are
used to develop the Best Places to Work in the Federal Government rankings. In the 2010 EVS, United States Mint
employee positive response rates improved in 42 out of 58 recurring questions. Responses indicated that we are on
the right track in many key areas, such as work life balance and training and development. Much remains to be done
in other areas. Employee survey responses indicate that employees feel they are not meaningfully recognized for
their work performance and their leaders do not generate high levels of motivation and commitment. To better
understand these recent results, in FY 2010, we asked employees to specify the top issues that concern them. Across
the organization, our employees identified two issues as critical: communication and recognition. We see these
issues and overall declines in employee satisfaction as symptomatic of the culture that has evolved throughout the
United States Mint in recent years. Accordingly, the best way to improve employee satisfaction is to change the
overall culture through our leadership and organizational excellence efforts.




                                                         21
GOAL 4: Leadership and organizational excellence

The United States Mint strives to maintain public trust and confidence through exemplary leadership, a high-
performing culture and best-in-class practices. Developing unified, committed leaders with the requisite skills and
experience to guide and engage our workforce is a top priority for the United States Mint. To us, organizational
excellence does not just mean creating coinage; it requires we engage modern technologies and become more
environmentally sustainable so that we benefit the American public with a well-managed operation.
Implementing Cultural Change
In FY 2010, we continued to concentrate on changing the culture at the United States Mint. It had become increasingly
apparent that our common practices, habits and mindset were inhibiting, rather than supporting, effective operations.
Survey results and feedback indicated that employees were increasingly dissatisfied with the quality of leadership,
their involvement in decisions that affect their work and the recognition they received for that work. Unsatisfied and
disengaged employees have little interest, willingness or ability to contribute to organizational success.
We determined the best way to counter this is to create a performance, results-based, learning culture. We began imple-
menting cultural change in FY 2009 by developing initiatives to close gaps between our current and desired states.
We trained all supervisors to develop specific and measureable goals and better communicate to employees what was
needed to achieve these goals. In FY 2010, supervisors and employees tracked progress towards these goals to improve
organizational performance. This lay the foundation for further improvements in communication and leadership that
we implemented throughout FY 2010.
Effective, two-way communication is critical to our desired culture. Communication has often posed a problem at
the United States Mint with employees dispersed in six facilities throughout the United States. We initiated a multi-
pronged approach to improve internal communications and provide employees first-hand information on all aspects
of our business. We enhanced traditional top-down communications, such as the “InfoMint,” a monthly internal
newsletter. Our Public Affairs Office expanded the newsletter to include content from all six sites and information
about the United States Mint history. Our Deputy Director initiated a monthly communication to all employees
highlighting the key events and successes of each department.
We also focused on ensuring employees had opportunities to share their opinions and operational questions with
leadership. The Director and Deputy Director attend town halls, quarterly organization-wide meetings which are
video-conferenced to all locations, and visit all United States Mint locations to give workers a chance to talk to them
in person. The Director also has brown bag lunches with randomly selected employees when he visits each site to
discuss issues and offer candid feedback. Another source of information is “Talkin’ Change,” a forum that shares
answers to virtually all questions submitted anonymously by employees on any topic of concern or interest. Internal
employee surveys indicate that our efforts are starting to have an effect. The portion of employees who felt senior
management effectively communicates what the organization is trying to accomplish jumped from 46 percent
in FY 2009 to 58 percent in FY 2010.
Another important element of our desired culture is for employees to understand their individual role in the United
States Mint’s success. Our employees want to understand how their job fits into the organization’s vision, mission
and goals and how they can help the bureau succeed. Our executives have developed a clear vision of the United
States Mint’s future and communicated it to all employees. Specific and measurable performance commitments that
tie to the overall goals will cascade through the organization. Regular performance/development sessions between
supervisors and employees at all levels of the United States Mint facilitate the critical conversations necessary for
progress and development. In FY 2010, 62 percent of employees felt discussions with their immediate supervisor
about their performance were worthwhile, up from 56 percent last year.
Leadership will reinforce the desired culture through ensuring consistent policies, communicating expectations, and
leading by example. To improve leadership, the United States Mint created the Leadership Development Program (LDP),


                                                          22
a competency-based training and development program for supervisors, managers and executives. LDP is designed
to provide our leaders with the knowledge, skills and abilities they need to effectively guide and motivate employ-
ees. We are seeing gradual improvement in relationships between employees and immediate supervisors. In FY 2010,
62 percent of employees had trust and confidence in their immediate supervisor, up from 60 percent in FY 2009.
Excellence in Information Technology
In February 2010, the Department of the Treasury launched “One Treasury” Information Technology (IT) Services,
a multi-year initiative to implement uniform best-in-class IT services and facilitate information sharing across
the Department.
The United States Mint’s overall multi-year IT strategy tightly aligns with “One Treasury” IT Services. In early 2010,
we conducted a comprehensive assessment of current and future business and IT needs. To bridge the gaps between
what we currently have and what we need for achieving our new vision, we developed a five-year IT Roadmap to
transition our environment from disparate technologies and silo applications to a single Enterprise Resource Planning
(ERP) system. The ERP solution will simplify the IT environment, eliminate redundant applications and integrate
all necessary business modules into one system. The assessment also identified many immediate improvements that,
once implemented, made the IT infrastructure more efficient and more stable throughout the rest of the year.
Excellence in Sustainability
When President Barack Obama signed an Executive Order on Federal Leadership in Environmental, Energy and
Economic Performance in October 2009, he committed the Federal Government to lead by example and help build
a clean energy economy through our operations. Across the Federal Government, agencies are looking for ways to
reduce their carbon footprint and advance sustainability much the same way individual Americans and businesses are.
Producing circulating, investment and collector coins and medals is an energy-intensive process. This year we
conducted comprehensive energy audits of all facilities, undertook energy reduction projects and used more
renewable energy when possible. We sought Leadership in Energy and Environmental Design (LEED) and Energy
Star certification for properties where feasible. Both LEED and Energy Star are internationally recognized
certification systems that provide third-party verification that a building is maximizing operational efficiency while
minimizing environmental impacts.
We were awarded the Bronze Award in the 2010 Federal Electronics Challenge, a partnership program that
encourages Federal facilities to purchase greener electronic products, reduce the impact of electronic products during
use and manage obsolete electronics in an environmentally safe way. The United States Mint was awarded for
implementing IT procurement practices that ensure our purchases meet “green” standards and ensure we do not
waste or duplicate equipment.
In the United States Mint Headquarters building in Washington, D.C., our goal is to obtain Energy Star Certification
through various changes. We replaced light switches with motion sensors, installed automatic towel dispensers which
halved paper towel usage and began using recycled paper products and environmentally friendly cleaning products.
A small percentage of our energy at the Headquarters building comes from renewable resources. However, by adding
weather stripping, insulation and energy efficient light bulbs, we have saved money and reduced our carbon footprint.
In the Denver and Philadelphia facilities, we plan to convert from purchased steam for heating to capturing and
recycling steam generated on-site. Our West Point facility is in the process of becoming LEED certified, and our
Denver facility now purchases 100 percent of its energy from sustainable solar or wind, rather than fossil fuel,
sources. Through these changes, we have reduced our total greenhouse gas emissions by approximately 27 percent.
While cost savings are not guaranteed in the short-term, these “Green” initiatives are long-term solutions for
minimizing the United States Mint’s carbon footprint. We have made good progress and will improve and expand
on sustainable initiatives as appropriate in the future.

                                                          23
                                    Patricia M. Greiner
                                    United States Mint Chief Financial Officer

MANAGEMENT’S DISCUSSION AND ANALYSIS
Message from the Chief Financial Officer:

I am pleased to present the United States Mint’s financial statements as an integral part of the Fiscal Year (FY) 2010
Annual Report. As an organization, our priority is to report accurate financial data while objectively and consistently
executing our fiscal responsibilities. For FY 2010, our independent auditors rendered an unqualified opinion. The
United States Mint remains committed to accountability and integrity in our financial and management responsibilities.
The United States Mint again faced a challenging environment in FY 2010. As a result of the economic environment,
the cash generated from the operation of the United States Mint Public Enterprise Fund remained near FY 2009
levels but down from prior years. We transferred $388 million to the Treasury General Fund this year, about 18
percent less than our FY 2009 transfer.
Shipments of circulating coin to the Federal Reserve Banks (FRB) increased slightly from last year. However, the
composition of total shipments shifted to lower denominations, generating less revenue and seigniorage from
circulating operations. Sales of bullion coins soared beyond last year’s record high. We continued efforts to enlarge
precious metal blanks supply to meet escalating bullion coin demand. The United States Mint expanded bullion
sales from last year’s record of 27.6 million ounces to 35.8 million ounces in FY 2010. We fully satisfied investor
demand for American Eagle gold bullion coins and sufficiently expanded silver blank supply to remove order limits
on American Eagle silver bullion coins in August 2010. By the close of FY 2010, we had redirected a portion of
gold and silver blanks to resume production of the numismatic versions of these coins for release in late 2010.
As Chief Financial Officer, I have taken a lead in reinforcing fiscal discipline at the United States Mint. In 2009,
President Obama charged the Federal Government with saving $40 billion annually by FY 2011 by terminating
unnecessary contracts and strengthening acquisition management. The Office of Management and Budget, in turn,
tasked departments and agencies with achieving a 3.5 percent reduction in acquisition expenses in FY 2010 from
a FY 2008 baseline. We responded with an acquisition improvement plan that consolidated or renegotiated existing
contracts, expanded competition for new contracts and achieved over $47 million in procurement savings, a 22
percent reduction from our baseline.
In recent years, we have also implemented zero-based budgeting, prioritized capital project spending and instituted
formal processes to scrutinize discretionary budget items. These initiatives ensure we make efficient use of resources
and enabled us to generate more revenue and output in FY 2010 while holding non-metal operating expenditures
relatively constant from last fiscal year.




                                                          24
In FY 2010, the United States Mint developed a new method for allocating sales, general and administrative (SG&A)
costs to our products. The new accounting methodology will go into effect in FY 2011 and is in line with industry
best practices. It allocates costs so that every product we make carries the appropriate amount of SG&A relative to
the effort to manufacture, market and distribute it. Having accurate information that captures cost data more fully
and accurately is essential for properly reporting financial statements, as well as monitoring the costs of producing
circulating coins and numismatic and bullion products.
Strong financial management and internal controls are the foundation of an efficient and effective organization. In
FY 2010, the United States Mint conducted a comprehensive assessment of the effectiveness of internal controls over
financial reporting. Based on the results, we can provide unqualified assurance that internal controls over financial
reporting are operating effectively. For the second year in a row, the United States Mint did not identify any
material weaknesses.
We periodically review internal controls throughout the United States Mint to ensure we are making continuous
improvements wherever possible. In FY 2010, we enhanced the process for sealing the vaults where we hold gold and
silver assets. We instituted improved tamperproof seals to further strengthen internal controls over our custodial gold
and silver holdings.
The United States Mint prepared its financial statements in compliance with accounting standards issued by the
Federal Accounting Standards Advisory Board (FASAB). The FASAB is designated by the American Institute of
Certified Public Accountants as the standard-setting body for the financial statements of Federal government entities,
with respect to establishment of the United States Generally Accepted Accounting Principles.
We close FY 2010 continuing to provide the American people high-quality products and good financial results given
our current operating environment. We are committed to presenting our results in a complete and understandable
manner to our stakeholders, the American public. We hope you find our annual report useful and transparent. We look
forward to maintaining our 218 year-old tradition of service to the American public and our collectors in FY 2011.


Sincerely,




Patricia M. Greiner
Chief Financial Officer




                                                          25
Circulating Coinage

Circulating coins are shipped to the Federal Reserve Banks (FRB) as needed to replenish inventory and fulfill
commercial demand. Revenue from the sale of circulating coins is recognized at face value when coins are shipped.
Earned revenue equals the gross costs incurred to make and distribute coins. Seigniorage is the difference between
the face value and the gross costs of coins shipped. Seigniorage adds to the Federal Government’s cash balance,
but unlike the payment of taxes or other receipts, seigniorage does not involve a transfer of financial assets from
the public. Instead, it arises from the exercise of the Federal Government’s sovereign power to create money and
the public’s desire to hold financial assets in the form of coins. The President’s Budget excludes seigniorage from
receipts and treats it as a means of financing the national debt.
FY 2010 RESULTS
Total circulating coins shipped to the FRB increased 3.7 percent to 5,399 million pieces in Fiscal Year (FY) 2010
from 5,207 million pieces in FY 2009. While the total volume grew, the composition of shipments shifted toward
lower denomination coins, reducing the total value. The total dollar value of circulating shipments to the FRB fell
20.5 percent to $618.2 million from $777.6 million last year. Weak economic conditions that reduced shipments
and revenue in FY 2009 continued through the first half of FY 2010. This reversed midway through the fiscal year
as retail activity recovered and FRB coin inventory fell. Shipments to the FRB in the second half of FY 2010 were
three times those in the first half of the fiscal year.
Demand for newly minted coins strengthened for the lowest denominations but lagged for the higher denominations.
FRB orders for lower denominations jumped in the second half of FY 2010 as accumulated inventory was no longer
sufficient to enable commerce. Shipments of one-cent and five-cent coins increased 8.4 percent and 73.4 percent,
respectively, in FY 2010 from FY 2009. Dime shipments more than doubled, increasing 147.8 percent over the same
time period.
While declining from FY 2009 levels, FRB inventory of quarter-dollar coins remained more than sufficient to enable
cash transactions. Accordingly, shipments of newly minted quarters served primarily to fulfill collector demand for
the America the Beautiful Quarters® Coins. Shipments of quarters fell 73.9 percent to 252 million in FY 2010 from
965 million in FY 2009. Quarter shipments are expected to remain low until FRB inventory of the coins is depleted
to levels that better reflect its requirements.
Shipments of $1 coins declined 9.8 percent to 414 million in FY 2010 from 459 million last year. Shipments were
augmented by the Circulating $1 Coin Direct Ship Program, which contributed 21.9 percent of total $1 coin
shipments, compared to 18.6 percent in FY 2009. The $1 coin alone made up 66.9 percent of the total value of coins
shipped to the FRB, compared to 58.9 percent last year.

CIRCULATING (dollars in millions except seigniorage per $1 issued)
                                                                                                         % Change
                                          2010           2009           2008        2007        2006     2009 to 2010

Value of Shipments                    $   618.2      $   777.6       $ 1,294.5   $ 1,727.8   $ 1,271.9    (20.5%)
Gross Cost                            $   317.4      $   349.8       $ 588.3     $ 722.6     $ 603.4       (9.3%)
 Cost of Goods Sold                   $   239.2      $   251.7       $ 491.3     $ 629.1     $ 508.8       (5.0%)
 Sales, General & Administrative      $    78.2      $    98.1       $    97.0   $    93.5   $    94.6    (20.3%)
Seigniorage                           $   300.8      $   427.8       $ 706.2     $ 1,005.2   $ 668.5      (29.7%)
Seigniorage per $1 Issued             $    0.49      $    0.55       $    0.55   $    0.58   $    0.53




                                                                26
                           The shift in demand toward lower denomina-             Value of Shipments by Denomination (dollars in millions)
                           tions in FY 2010 reduced both the gross cost            $ 800
                                                                                              2008     2009      2010
                           and seigniorage from circulating operations.            $ 700

                           Circulating gross costs fell to $317.4 million          $ 600
                           in FY 2010 from $349.8 million in FY 2009.              $ 500
                           Circulating cost of goods sold (COGS) fell
                                                                                   $ 400
                           5.0 percent to $239.2 million in FY 2010 from
                                                                                   $ 300
                           $251.7 million in FY 2009. However, COGS
                                                                                   $ 200
                           made up a larger portion of the total value of
                           shipments because of increased metal expenses.          $ 100

                           Market prices of copper, nickel and zinc                   $0
                                                                                          One-Cent Five-Cent   Dime      Quarter  Dollar
                           recovered from FY 2009 lows and climbed
                           back to prior fiscal year levels. The average
                           daily spot price for copper and zinc increased 56.9 percent and 52.4 percent, respectively, from FY 2009 to FY 2010.
                           The average daily spot price for nickel rose 55.8 percent over the same time period. Selling, general and adminis-
                           trative expenses (SG&A) declined from $98.1 million in FY 2009 to $78.2 million in FY 2010, reflecting reduced
                           expenses to promote $1 coin circulation. While falling $19.9 million from FY 2009, SG&A expenses made up the
                           same portion of total value of shipments in FY 2010 because both declined at a similar rate (about 20 percent)
                           from FY 2009.
                           Seigniorage declined 29.7 percent to $300.8 million in FY 2010 from $427.8 million last year. Strong relative
                           demand for the penny and nickel coins reduced the return from circulating operations because these denominations
                           are made at a loss. The $1 coin generated the majority, approximately 94.0 percent, of total seigniorage in FY 2010.
                           The increased COGS relative to the total value of shipments pulled seigniorage per dollar issued down to $0.49 in
                           FY 2010 from $0.55 in FY 2009.
                           CIRCULATING UNIT COSTS
                           Per-unit metal costs increased in FY 2010, driving up the total unit cost of all denominations from last year. The nickel
                           per-unit metal and fabrication cost rose 2.3 cents from FY 2009, increasing the nickel total unit cost 52.9 percent to
                           9.2 cents in FY 2010. Higher per-unit metal and fabrication costs also drove up total unit costs for the quarter and $1
                           coin. Slight increases in per-unit SG&A costs contributed to higher total unit costs for the dime, quarter and $1 coin.




                              Base Metal Daily Official Spot Price (prices per metric tonne in dollars)
                              Copper                                                                                                 Zinc                                                                                  Nickel
                         10,000                                                                                              5,000                                                                                60,000


                                                                                                                             4,000                                                                                50,000
                                                                                                                                                                                         Price per metric tonne




                          8,000
Price per metric tonne




                                                                                                    Price per metric tonne




                                                                                                                                                                                                                  40,000
                                                                                                                             3,000
                          6,000                                                                                                                                                                                   30,000
                                                                                                                             2,000
                                                                                                                                                                                                                  20,000
                          4,000
                                                                                                                             1,000
                                                                                                                                                                                                                  10,000

                          2,000                                                                                                 0                                                                                     0
                                      Sep-06     Sep-07     Sep-08     Sep-09     Sep-10                                                    Sep-06   Sep-07   Sep-08   Sep-09   Sep-10                                              Sep-06   Sep-07   Sep-08   Sep-09   Sep-10




                                                                                                                                                27
       The unit cost for both penny and nickel denominations remained above face value for the fifth consecutive fiscal
       year. Higher unit cost and demand for the five-cent coin increased the overall loss the United States Mint incurred
       from producing these denominations in FY 2010. Penny and nickel coins were produced at a loss of $42.6 million,
       nearly double the FY 2009 loss of $22.0 million.
       Base metal expenses continue to make up the largest portion of circulating production cost, eroding seigniorage
       derived from circulating operations. Toward the end of FY 2009, market prices for copper, nickel and zinc all
       started to increase to FY 2007 levels. Changing the composition of coins to less expensive alternative materials
       could generate significant cost savings and mitigate further reductions in seigniorage should metal market prices
       escalate. The Secretary of the Treasury currently has authority to select the composition of the $1 coin, as well as
       alter the percentage of copper and zinc in the one-cent coin. The compositions of five-cent, dime, quarter-dollar
       and half-dollar coins are codified by statute. Any authority to change the composition of these denominations
       requires a statutory amendment.


SHIPMENTS TO FEDERAL RESERVE BANKS, COSTS AND SEIGNIORAGE BY DENOMINATION
(coins and dollars in millions except seigniorage per $1 issued)

2010                               One-Cent        Five-Cent            Dime    Quarter-Dollar Half-Dollar          $1   Mutilated          Total
                                                                                                                          & Other
Coins Shipped to the FRB               3,487           359             887           252               –         414             –        5,399
Value of Shipments                 $      34.9     $     17.9     $     88.7    $     63.2     $       –     $   413.5   $       –    $     618.2
Gross Cost                         $      62.3     $     33.1     $     50.6    $     32.2     $    0.1      $   130.7   $     8.4    $     317.4
 Cost of Goods Sold                $      62.3     $     33.1     $     40.8    $     24.6     $    0.1      $    69.9   $     8.4    $     239.2
 Sales, General & Administrative   $         –     $        –     $      9.8    $      7.6     $       –     $    60.8   $       –    $      78.2
Seigniorage                        $     (27.4)    $    (15.2)    $     38.1    $     31.0     $   (0.1)     $   282.8   $    (8.4)   $     300.8
Seigniorage per $1 Issued          $     (0.79)    $    (0.85)    $     0.43    $     0.49     $       –     $    0.68   $       –    $      0.49


2009                               One-Cent        Five-Cent            Dime    Quarter-Dollar Half-Dollar          $1   Mutilated          Total
                                                                                                                          & Other
Coins Shipped to the FRB               3,218           207             358           965               –         459             –        5,207
Value of Shipments                 $      32.2     $     10.3     $     35.7    $    241.3     $       –     $   458.1   $       –    $     777.6
Gross Cost                         $      52.0     $     12.5     $     20.2    $    109.1     $   (0.1)     $   139.4   $    16.7    $     349.8
 Cost of Goods Sold                $      52.0     $     12.2     $     16.6    $     80.3     $   (0.2)     $    74.1   $    16.7    $     251.7
 Sales, General & Administrative   $         –     $       0.3    $      3.6    $     28.8     $    0.1      $    65.3   $       –    $      98.1
Seigniorage                        $     (19.8)    $      (2.2)   $     15.5    $    132.2     $    0.1      $   318.7   $   (16.7)   $     427.8
Seigniorage per $1 Issued          $     (0.61)    $    (0.21)    $     0.43    $     0.55     $       –     $    0.70   $       –    $      0.55


2008                               One-Cent        Five-Cent            Dime    Quarter-Dollar Half-Dollar          $1   Mutilated          Total
                                                                                                                          & Other

Coins Shipped to the FRB               5,272           647            1,070         2,510            –           475             –      9,974
Value of Shipments                 $       52.7    $     32.3     $     107.1   $     627.6    $     –       $   474.8   $       –    $ 1,294.5
Gross Cost                         $       74.9    $     57.1     $      46.6   $     273.5    $     –       $   125.4   $    10.8    $ 588.3
 Cost of Goods Sold                $       74.7    $     57.1     $      40.3   $     235.2    $     –       $    73.2   $    10.8    $ 491.3
 Sales, General & Administrative   $        0.2    $        –     $       6.3   $      38.3    $     –       $    52.2   $       –    $    97.0
Seigniorage                        $      (22.2)   $    (24.8)    $      60.5   $     354.1    $     –       $   349.4   $   (10.8)   $ 706.2
Seigniorage per $1 Issued          $      (0.42)   $    (0.77)    $      0.56   $      0.56    $     –       $    0.74   $       –    $    0.55




                                                                           28
           Seigniorage per Dollar Issued by Denomination
   $1.00
               2008       2009        2010
   $0.80
   $0.60
   $0.40
   $0.20
   $0.00
 ($0.20)
 ($0.40)
 ($0.60)
 ($0.80)
 ($1.00)
             One-Cent     Five-Cent          Dime   Quarter           Dollar




UNIT COST OF PRODUCING AND DISTRIBUTING COINS BY DENOMINATION

2010                                    One-Cent     Five-Cent         Dime      Quarter-Dollar   Half-Dollar         $1


Cost of Goods Sold                      $ 0.0176     $ 0.0916      $ 0.0454      $ 0.0956         $        –    $ 0.1659
Sales, General & Administrative         $      –     $      –      $ 0.0110      $ 0.0302         $        –    $ 0.1469
Distribution to FRB                     $ 0.0003     $ 0.0006      $ 0.0005      $ 0.0020         $        –    $ 0.0029
Total Unit Cost                         $ 0.0179     $ 0.0922      $ 0.0569      $ 0.1278         $        –    $ 0.3157


2009                                    One-Cent     Five-Cent         Dime      Quarter-Dollar   Half-Dollar        $1


Cost of Goods Sold                      $ 0.0159     $ 0.0579      $ 0.0456      $ 0.0816         $    –        $ 0.1601
Sales, General & Administrative         $      –     $ 0.0014      $ 0.0101      $ 0.0298         $    –        $ 0.1424
Distribution to FRB                     $ 0.0003     $ 0.0010      $ 0.0008      $ 0.0017         $    –        $ 0.0017
Total Unit Cost                         $ 0.0162     $ 0.0603      $ 0.0565      $ 0.1131         $    –        $ 0.3042


2008                                    One-Cent     Five-Cent         Dime      Quarter-Dollar   Half-Dollar        $1


Cost of Goods Sold                      $ 0.0139     $ 0.0877      $ 0.0371      $ 0.0925         $    –        $ 0.1517
Sales, General & Administrative         $      –     $      –      $ 0.0059      $ 0.0153         $    –        $ 0.1098
Distribution to FRB                     $ 0.0003     $ 0.0006      $ 0.0006      $ 0.0012         $    –        $ 0.0026
Total Unit Cost                         $ 0.0142     $ 0.0883      $ 0.0436      $ 0.1090         $    –        $ 0.2641



Note: FY 2009 $1 Cost of Goods Sold unit cost revised to $0.1601 from $0.1599 in FY 2009 Annual Report to correct a rounding error.




                                                                 29
          United States Mint at Denver employee Gail Frazier inspects the edge lettering
on a Presidential $1 Dollar Coin. Edge lettering is applied after the coin is minted. Once the blanks
   are dried, they move to the upsetting mill. This machine raises rims around the edge on both
           sides of the blank and reduces it to a size that fits into the coining press collar.




                                                30
BULLION PRODUCTS

The United States Mint mints and issues gold, silver and platinum bullion coins to Authorized Purchasers through
American Eagle and American Buffalo Bullion Coin Programs. The bureau purchases precious metal on the open
market at the time of an order. Coins are sold to Authorized Purchasers at the same market price paid for the metal to
produce the coins plus a premium to cover bullion program operating costs. Authorized Purchasers agree to maintain
an open, two-way market for these coins, assuring their liquidity. This allows the public to purchase and sell coins at
the prevailing market price, adjusting for any premium the authorized purchaser applies. The purpose of the bullion
program is to make precious metal coins available at minimal cost to investors. Consequently, the United States
Mint manages the bullion program to a nominal net margin.
FY 2010 RESULTS
Demand for bullion coins reached a new high in FY 2010, surpassing the unprecedented demand of FY 2009.
Uncertainty surrounding traditional investments and concerns about future inflation continued to drive investor
demand into FY 2010. Demand appeared to be easing, along with precious metal market prices, in the second
quarter of the fiscal year. However, global fears over European sovereign debt caused demand to rebound as the spot
prices of gold and silver soared back to record nominal highs in the third quarter. Spot prices began declining again
at the beginning of the fourth quarter but bounced back to new record nominal highs. Bullion coin sales remained
strong as perceptions on the global economic outlook worsened through the close of FY 2010.
The United States Mint sold 35.8 million ounces of gold and silver bullion coins in FY 2010, up 8.2 million ounces
(29.7 percent) from the previous record total sales of 27.6 million in FY 2009. The bureau sold this record volume
to Authorized Purchasers at higher prices, reflecting the increased market value for gold and silver. The average spot
price of gold and silver increased 29.2 percent and 40.1 percent, respectively, in FY 2010 from FY 2009. Accordingly,
total bullion revenue reached a record high of $2,855.4 million in FY 2010, up $1,160.6 million (68.5 percent) from
$1,694.8 million in FY 2009.
The volume of precious metal planchets the United States Mint’s suppliers can provide in a timely manner limits the
number of bullion products the bureau can produce. In FY 2010, the United States Mint worked extensively with
existing and new vendors to increase the quantity of gold and silver planchets they supply the bureau. As in FY 2009,
the United States Mint diverted planchets from discretionary numismatic and bullion programs to American Eagle
gold and silver bullion coin programs for which the bureau is required to mint and issue coins in quantities sufficient
to meet public demand. While demand remained strong, the United States Mint fully satisfied demand for 2010
American Eagle gold bullion coins throughout FY 2010.
The United States Mint maintained standard allocation and ordering limits on American Eagle silver bullion coins
through most of FY 2010. These measures ensure that scarce products are equitably distributed among Authorized
Purchasers. In August 2010, expanded supply was sufficient to remove ordering limits and satisfy all demand for
silver bullion coins.

BULLION (dollars in millions)
                                                                                                          % Change
                                      2010           2009            2008         2007          2006      2009 to 2010

Sales Revenue                      $ 2,855.4      $ 1,694.8      $   948.8    $   356.1     $   536.6         (68.5%)
Gross Cost                         $ 2,800.2      $ 1,662.1      $   931.0    $   351.6     $   524.4         (68.5%)
 Cost of Goods Sold                $ 2,778.4      $ 1,650.0      $   922.6    $   350.0     $   523.0         (68.4%)
 Sales, General & Administrative   $     21.8     $     12.1     $      8.4   $      1.6    $      1.4        (80.2%)
Net Income                         $     55.2     $     32.7     $     17.8   $      4.5    $     12.2        (68.8%)
Bullion Net Margin                      1.9%           1.9%           1.9%         1.3%          2.3%



                                                            31
        High sales volumes and market prices drove gross cost up to                                                                     Revenue by Bullion Program (dollars in millions)
        $2,800.2 million in FY 2010 from $1,662.1 million in FY 2009.                                                               $1,800
                                                                                                                                                                                    2008         2009           2010
        Cost of goods sold (COGS) increased to $2,778.4 million in FY                                                               $1,600

        2010 from $1,650.0 million last year but made up the same portion                                                           $1,400

        of total sales revenue. Bullion sales generated the largest portion
                                                                                                                                    $1,200
        of the United States Mint’s total revenue. Consequently, a greater
                                                                                                                                    $1,000
        portion of sales, general and administrative (SG&A) expense was
        allocated to the bullion program in FY 2010. Bullion SG&A increased                                                          $800


        to $21.8 million in FY 2010 from $12.1 million last year. Bullion                                                            $600

        net income increased 68.8 percent to $55.2 million in FY 2010 from                                                           $400

        $32.7 million in FY 2009. The bullion program was successfully
                                                                                                                                     $200
        managed to just below the standard net margin of two percent.
                                                                                                                                       $0
                                                                                                                                                    American         American       American Eagle       American
        AMERICAN EAGLE PROGRAM                                                                                                                     Eagle Gold       Eagle Silver      Platinum          Buffalo Gold

        Revenue from the sales of American Eagle 22-karat gold and silver
        bullion coins experienced record growth.
        American Eagle gold bullion sales revenue increased 33.8 percent to $1,710.8 million in FY 2010 from $1,278.2
        million in FY 2009. Revenue from the sale of these 22-karat gold coins made up 59.9 percent of total bullion
        revenue in FY 2010. American Eagle gold coin revenue was boosted by sales of 2009 and 2010 year-dated fractional
        weights (one-half, one-fourth or one-tenth ounces), which were both initially released for sale during the fiscal year.
        The United States Mint sold 174,000 ounces of American Eagle gold fractional weight coins in FY 2010, six times
        the ounces sold in FY 2009.
        American Eagle silver bullion sales revenue increased 77.4 percent to $659.9 million in FY 2010 from $372.0 million
        in FY 2009. American Eagle silver one-ounce bullion coins made up the vast majority (94.9 percent) of total ounces
        sold in FY 2010. The United States Mint sold approximately 34.0 million ounces of silver bullion coins, up 30.0
        percent from last year.
        Net income from American Eagle gold coins increased from $25.5 million in FY 2009 to $35.3 million in FY 2010.
        American Eagle silver coin net income more than doubled, increasing to $13.5 million from $6.1 million last year.
        Starting in calendar year 2009, the United States Mint suspended production of American Eagle platinum coins to
        divert production capacity to mandatory bullion programs. There is no statutory requirement for the United States
        Mint to produce or supply platinum bullion coins. All American Eagle platinum bullion coin revenue recorded
        in FY 2009 resulted from the sale of calendar year 2008 coin inventory in the first quarter. No American Eagle
        platinum bullion coin sales revenue was recorded in FY 2010.


    Precious Metal Daily Spot Price (prices per troy ounce in dollars)
    Gold                                                                      Silver                                                           Platinum
1,400                                                                    25                                                              2,500


1,200                                                                                                                                    2,000
                                                                         20

1,000
                                                                         15                                                              1,500
 800

                                                                         10                                                              1,000
 600


 400                                                                      5                                                                  500
            Sep-06     Sep-07     Sep-08    Sep-09      Sep-10                         Sep-06   Sep-07   Sep-08   Sep-09   Sep-10                          Sep-06      Sep-07      Sep-08    Sep-09        Sep-10




                                                                                                     32
AMERICAN BUFFALO PROGRAM
The American Buffalo program achieved record ounces sold and revenue in FY 2010 because both 2009 and 2010
24-karat gold coins were released for sale during the fiscal year. The United States Mint delayed release of the 2009
American Buffalo bullion coins to divert planchet supply and production capacity to American Eagle 22-karat gold
one-ounce coin production. While Federal law requires the United States Mint to meet public demand for American
Eagle coins, the American Buffalo program’s authorizing legislation only provides that 24-karat gold bullion coins
be minted and issued in quantities the Secretary of the Treasury prescribes. After fully satisfying demand for
American Eagle gold coins, the United States began acquiring planchets for the American Buffalo program in the
fourth quarter of FY 2009. The bureau began offering 2009 American Buffalo 24-karat gold one ounce coin sales
in October 2009. The United State Mint launched the 2010 coins for sale in May 2010.
Both 2009 and 2010 coins sold out during the fiscal year. Revenue from American Buffalo coins totaled $484.7
million in FY 2010, significantly above FY 2009 revenue of $20.9 million. FY 2009 American Buffalo revenue
resulted from the sale of a small quantity of 2008 coins during the first quarter. FY 2010 revenue was nearly three
times FY 2008 revenue, during which American Buffalo sales were more typical of prior fiscal years. American
Buffalo gold net income grew to $6.4 million in FY 2010 from $0.1 million in FY 2009.




BULLION REVENUE, COST AND NET INCOME BY PROGRAM
(dollars in millions)
2010                                American       American       American         American           Total
                                    Eagle Gold     Eagle Silver   Eagle Platinum   Buffalo Gold
Sales Revenue                       $ 1,710.8      $ 659.9        $            –   $ 484.7         $ 2,855.4
Gross Cost                          $ 1,675.5      $ 646.4        $            –   $ 478.3         $ 2,800.2
 Cost of Goods Sold                 $ 1,663.5      $ 641.7        $            –   $ 473.2         $ 2,778.4
 Sales, General & Administrative    $     12.0     $   4.7        $            –   $    5.1        $     21.8
Net Income                          $     35.3     $ 13.5         $            –   $    6.4        $     55.2
Bullion Net Margin                       2.1%         2.0%                     –      1.3%              1.9%


2009                                American       American       American         American           Total
                                    Eagle Gold     Eagle Silver   Eagle Platinum   Buffalo Gold
Sales Revenue                       $ 1,278.2      $ 372.0        $     23.7       $    20.9       $ 1,694.8
Gross Cost                          $ 1,252.7      $ 365.9        $     22.7       $    20.8       $ 1,662.1
 Cost of Goods Sold                 $ 1,245.0      $ 361.9        $     22.4       $    20.7       $ 1,650.0
 Sales, General & Administrative    $      7.7     $    4.0       $      0.3       $     0.1       $     12.1
Net Income                          $     25.5     $    6.1       $      1.0       $     0.1       $     32.7
Bullion Net Margin                       2.0%         1.6%             4.2%            0.5%             1.9%



2008                                American       American       American         American           Total
                                    Eagle Gold     Eagle Silver   Eagle Platinum   Buffalo Gold
Sales Revenue                       $ 449.6        $ 306.4        $    22.4        $ 170.4         $ 948.8
Gross Cost                          $ 439.4        $ 301.4        $    21.5        $ 168.7         $ 931.0
 Cost of Goods Sold                 $ 435.3        $ 299.3        $    21.2        $ 166.8         $ 922.6
 Sales, General & Administrative    $    4.1       $    2.1       $     0.3        $    1.9        $    8.4
Net Income                          $ 10.2         $    5.0       $     0.9        $    1.7        $ 17.8
Bullion Net Margin                     2.3%           1.6%            4.0%            1.0%            1.9%




                                                          33
    United States Mint at San Francisco employee Ofelia Reyes is monitoring coin blanks for proof sets. They are
 being burnished to remove oxidation layers. After blanks are cut, they are placed in a furnace at temperatures over
    700 degrees centigrade to soften the metal (a process called annealing). From the furnace, the blanks drop into
      a quench tank to reduce the temperature. Next, the blanks travel through a huge cylindrical tube called the
  whirlaway. Suspended high above the ground, these tubes tilt at a 45-degree angle toward the washing and drying
  station. As the blanks travel up the whirlaway toward the washer, excess liquid is drained. The high temperature
   of the annealing process creates a grayish discoloration on the surface of the metal. To make it bright and shiny,
the metal needs to be cleaned to remove oxides, tarnish, discoloration or contamination that remains after annealing.

                                                        34
numismatic PRODUCTS

The United States Mint prepares and distributes a variety of numismatic products directly to the public. The value
of sales of numismatic products is considered earned revenue in the financial statements. The net return from nu-
mismatic operations is calculated by subtracting the program’s gross costs from sales revenue. The pricing for this
program is managed to at or below a 15 percent net margin overall to ensure sale prices are as low as practicable
and returns are sufficient to fund numismatic operating costs.
FY 2010 RESULTS
Retail sales of numismatic versions of the United States Mint’s circulating and commemorative coins and medals
weakened in FY 2010 compared to prior fiscal years. The United States Mint offered fewer precious metal
numismatic products in FY 2010 because gold and silver blanks were diverted to the bullion program. Additionally,
poor economic conditions may have suppressed consumer spending on collectibles as sales of available recurring
products declined from prior years. The introduction of the new America the Beautiful Quarters Program numismatic
products did not offset this decline.
Because numismatic sales shifted toward higher priced products, revenue declined slightly from last year’s total
despite lower sales volumes. Numismatic total units sold fell to approximately 6.5 million from 8.0 million last year.
Numismatic sales revenue fell only 6.1 percent to $413.1 million in FY 2010 from $440.0 million last year.
Lower sales volumes reduced numismatic gross costs by 8.9 percent to $363.3 million in FY 2010 from $398.9
million in FY 2009. Cost of goods sold (COGS) decreased to $298.6 million and made up a slightly smaller portion
of numismatic sales revenue. Sales, general and administrative (SG&A) expenses declined 6.5 percent to $64.7
million but remained fairly consistent relative to revenue. Less SG&A expense was allocated to the numismatic
program in FY 2010 because numismatic sales generated a smaller portion of the United States Mint’s total revenue.
Despite reduced demand, numismatic program net income and seigniorage increased to $49.8 million in FY 2010
from $41.1 million in FY 2009. Earnings growth reflected a shift in sales toward high margin products. Gross cost
made up a smaller portion of numismatic sales revenue, boosting the net margin to 12.1 percent in FY 2010 from 9.3
percent in FY 2009.
RECURRING PROGRAMS
Recurring programs include high quality versions of the Nation’s circulating coinage that are specially packaged.
These products include annual sets, America the Beautiful Quarters sets, and Presidential $1 Coin sets. Revenue
from recurring programs decreased 4.0 percent to $191.9 million in FY 2010 from $199.8 million in FY 2009.
Despite lower sales revenue and volumes, net income more than doubled, increasing from $9.9 million in FY 2009 to
$21.2 million in FY 2010. Earnings grew because recurring program COGS fell 13.7 percent and made up a smaller


NUMISMATIC (dollars in millions)
                                                                                                         % Change
                                     2010          2009            2008          2007           2006     2009 to 2010

Sales Revenue                      $ 413.1      $ 440.0        $  557.2      $  551.5       $  514.9        (6.1%)
Gross Cost                         $ 363.3      $ 398.9        $  474.8      $  475.6       $  427.7        (8.9%)
 Cost of Goods Sold                $ 298.6      $ 329.7        $  388.1      $  396.7       $  346.2        (9.4%)
 Sales, General & Administrative   $ 64.7       $ 69.2         $   86.7      $   78.9       $   81.5        (6.5%)
Net Income & Seigniorage           $ 49.8       $ 41.1         $   82.4      $   75.9       $   87.2        21.2%
Numismatic Net Margin                12.1%         9.3%          14.8%         13.8%          16.9%
Seigniorage Portion                $ 12.0       $ 19.3         $   22.5      $   27.1       $   13.9       (37.8%)




                                                          35
portion of revenue. The raw materials and production costs for 2010 annual sets fell from the 2009 counterparts
because the current year sets included fewer individual coins. This reduction in COGS also resulted in a higher
net margin.
2009 ULTRA HIGH RELIEF DOUBLE EAGLE GOLD COIN
Sales of the 2009 Ultra High Relief Double Eagle Gold Coin began on January 22, 2009, and generated $112.4 million
in revenue in FY 2009. The 2009 Ultra High Relief Double Eagle Gold Coin was the highest revenue generating
numismatic product, contributing 25.5 percent of total sales revenue in FY 2009. The United States Mint continued
to offer the coins for sale through the close of the 2009 calendar year. Sales of the 2009 Ultra High Relief Double
Eagle Gold Coin generated $35.1 million in revenue in FY 2010.
The United States Mint recorded some expenses charged to the entire program upon conclusion in FY 2010. This
drove up COGS and resulted in negative net income for the fiscal year. However, the entire 2009 Ultra High Relief
Double Eagle Gold Coin generated positive net income of $4.1 million over all three fiscal years containing financial
results for the program.
AMERICAN EAGLE PROGRAM
American Eagle gold, silver and platinum coins are offered in proof and uncirculated quality as part of the
numismatic program. In FY 2009, the United States Mint suspended production of gold and silver American Eagle
numismatic products to divert precious metal planchet supply to bullion coin production. Consequently, sales of
American Eagle platinum numismatic products made up the vast majority of American Eagle revenue in FY 2010.
During the fiscal year, the bureau released for sale the first two of a series of six annual one-ounce American
Eagle Platinum numismatic Proof Coins with reverse designs honoring principles in the preamble to the United
States Constitution.
Revenue from the sale of American Eagle products fell 40.7 percent to $32.7 million in FY 2010 from $55.1 million
in FY 2009. All revenue recorded in FY 2009 resulted from the sale of 2008 American Eagle numismatic products
in the first half of FY 2009. American Eagle program net income fell from $5.2 million in FY 2009 to $4.3 million
in FY 2010. The net margin increased to 13.1 percent because American Eagle platinum products made up the vast
majority of sales. American Eagle platinum products were sold at a higher margin because the raw material was
purchased when platinum market prices were low relative to FY 2010 market prices. The price of one-ounce
American Eagle Platinum Proof Coin varies with platinum market prices at the point of sale to ensure that consumers
are unaffected by deviations between the product and market price.
AMERICAN BUFFALO PROGRAM
Revenue from the sale of American Buffalo numismatic products increased significantly in FY 2010 because both
2009 and 2010 versions of the 24-karat gold proof one-ounce coin were released for sale during the fiscal year. As
with the American Buffalo bullion program, the United States Mint delayed release of the 2009 American Buffalo
gold numismatic products to divert planchet supply and production capacity to American Eagle bullion coin produc-
tion. The bureau offered the 2009 American Buffalo gold proof one-ounce coin for sale in October 2009. The 2010
coin was released for sale in June 2010. Revenue from American Buffalo products sales grew to $115.6 million in
FY 2010 from $25.7 million in FY 2009. All revenue recorded in FY 2009 resulted from the sale of 2008 American




                                                        36
Revenue by Numismatic Program (dollars in millions)
$250
                                           2008         2009          2010


$200



$150



$100



$ 50



 $0
                   Ultra High   American   American   Commem-      Sale of
       Recurring
                     Relief      Eagle      Buffalo    orative   Circulating




Buffalo numismatic products in the initial quarters of FY 2009.
American Buffalo program net income increased to $12.6 million in FY 2010 from $1.5 million last year. The net
margin increased to 10.9 percent because FY 2010 sales consisted of only American Buffalo gold proof one-ounce
coins. FY 2009 sales included American Buffalo gold uncirculated one-ounce coins and the 2008 Celebration Coin,
which were both sold at a lower margin. The margin on the proof coin was consistent from fiscal year to fiscal year.
COMMEMORATIVE COIN PROGRAMS
Revenue from the sale of commemorative coins, less surcharges paid to recipient organizations, declined slightly
to $20.1 million in FY 2010 from $21.6 million in FY 2009. Two commemorative programs were launched in FY
2010. The American Veterans Disabled for Life Silver Dollar Program generated $9.0 million in revenue and $2.3
million in eligible surcharges for the recipient organization as of September 30, 2010. The Boy Scouts of America
Centennial Silver Dollar Program generated $13.5 million in revenue and $3.5 million in eligible surcharges for the
recipient organization as of September 30, 2010.
Commemorative coin programs are managed on a calendar year basis. Truncating program results to fiscal year can
result in negative net income. The United States Mint manages commemorative programs to a nominal net income
after eligible surcharge so that costs are recovered.
NUMISMATIC SALES OF CIRCULATING COINAGE
The United States Mint sells certain circulating coins through numismatic channels. Revenue from these sales is
recognized as the face value of circulating coin sold in the same way as circulating shipments to the FRB. The total
face value from the sale of circulating coinage fell 30.3 percent to $17.7 million in FY 2010 from $25.4 million in
FY 2009. Seigniorage from the numismatic sale of circulating coins is not available to the United States Mint as
spending authority, but is transferred to the Treasury General Fund as off-budget receipts. Seigniorage decreased to
$12.0 million in FY 2010 from $19.3 million last fiscal year.




                                                                               37
NUMISMATIC REVENUE, COST AND NET INCOME OR SEIGNIORAGE BY PROGRAM
(dollars in millions)

2010                               Recurring   Ultra High   American   American   Commemorative   Numismatic Sale     Total
                                               Relief       Eagle      Buffalo                    of Circulating

Sales Revenue                      $ 191.9     $ 35.1       $ 32.7     $ 115.6    $ 20.1          $     17.7        $ 413.1
Gross Cost                         $ 170.7     $ 37.1       $ 28.4     $ 103.0    $ 18.4          $      5.7        $ 363.3
 Cost of Goods Sold                $ 131.9     $ 36.2       $ 21.9     $ 90.3     $ 14.9          $      3.4        $ 298.6
 Sales, General & Administrative   $ 38.8      $ 0.9        $ 6.5      $ 12.7     $ 3.5           $      2.3        $ 64.7
Net Income & Seigniorage           $ 21.2      $ (2.0)      $ 4.3      $ 12.6     $ 1.7           $     12.0        $ 49.8
Numismatic Net Margin               11.0%       (5.7%)       13.1%       10.9%      8.5%              67.8%          12.1%



2009                               Recurring   Ultra High   American   American   Commemorative   Numismatic Sale     Total
                                               Relief       Eagle      Buffalo                    of Circulating

Sales Revenue                      $ 199.8     $ 112.4      $ 55.1     $ 25.7     $ 21.6          $ 25.4            $ 440.0
Gross Cost                         $ 189.9     $ 106.0      $ 49.9     $ 24.2     $ 22.8          $ 6.1             $ 398.9
 Cost of Goods Sold                $ 152.9     $ 88.9       $ 43.6     $ 21.9     $ 19.1          $ 3.3             $ 329.7
 Sales, General & Administrative   $ 37.0      $ 17.1       $ 6.3      $ 2.3      $ 3.7           $ 2.8             $ 69.2
Net Income & Seigniorage           $ 9.9       $ 6.4        $ 5.2      $ 1.5      $ (1.2)         $ 19.3            $ 41.1
Numismatic Net Margin                 5.0%        5.7%        9.4%       5.8%      (5.6%)          76.0%               9.3%




2008                               Recurring   Ultra High   American   American   Commemorative   Numismatic Sale     Total
                                               Relief       Eagle      Buffalo                    of Circulating

Sales Revenue                      $ 245.5     $ 0.0        $ 166.0    $ 78.8     $ 37.3          $ 29.6            $ 557.2
Gross Cost                         $ 226.1     $ 0.3        $ 137.4    $ 71.0     $ 32.9          $ 7.1             $ 474.8
 Cost of Goods Sold                $ 174.8     $ 0.1        $ 117.1    $ 64.7     $ 27.6          $ 3.8             $ 388.1
 Sales, General & Administrative   $ 51.3      $ 0.2        $ 20.3     $ 6.3      $ 5.3           $ 3.3             $ 86.7
Net Income & Seigniorage           $ 19.4      $ (0.3)      $ 28.6     $ 7.8      $ 4.4           $ 22.5            $ 82.4
Numismatic Net Margin                 7.9%          –         17.2%      9.9%      11.8%           76.0%             14.8%




                                                              38
Transfer to the Treasury General Fund

As required by U.S.C. § 5136, the United States Mint deposits all receipts from operations and programs into the
United States Mint Public Enterprise Fund (PEF). Periodically throughout the year, the bureau transfers amounts in
the PEF determined to be in excess of amounts required to support on-going United States Mint operations
and programs.
The United States Mint’s operations yielded lower returns in FY 2010 compared to prior fiscal years. Circulating
receipts historically generate the vast majority of the PEF’s transfer to the Treasury General Fund. Higher base metal
expenses and a shift in demand toward lower denominations in FY 2010 generated reduced seigniorage amounts for
the PEF. Consequently, the United States Mint PEF generated a $388.0 million return to the Treasury General Fund,
an 18.3 percent decrease from the $475.0 million return in FY 2009.
OFF-BUDGET TRANSFER
The off-budget transfer is seigniorage, the financing source resulting from the sale of circulating coins. Seigniorage
arises from the Federal Government exercising its sovereign power to create money. The President’s Budget excludes
the off-budget transfer from receipts and treats it as a means of financing the national debt. The comparatively
low level of seigniorage generated in FY 2010 reduced the off-budget transfer 14.8 percent to $375.0 million from
$440.0 million in FY 2009.
ON-BUDGET TRANSFER
The on-budget transfer consists of the prior fiscal year net income from operations (excluding seigniorage). This
represents numismatic (including bullion) net income less the net cost of protection of assets. The United States
Mint retains the net income from the prior fiscal year operations, pending the completion of the financial statement
audit. Until that time, the amount is considered permanently not available as a funding source for PEF operations.
The on-budget transfer is treated as receipts and available to reduce the deficit or fund current Federal Government
operations or programs. Resulting from FY 2009 net income from operations, the FY 2010 on-budget transfer totaled
$13.0 million. The FY 2009 on-budget transfer from FY 2008 net income from operations totaled $35.0 million.


Off-Budget Transfer (dollars in millions)                  On-Budget Transfer (dollars in millions)

           782
                    735
  666                                                           84



                               440

                                                                              43
                                                                                                  35
                                          375

                                                                                         15                   13


  2006     2007     2008       2009      2010                  2006           2007       2008     2009        2010




              TRANSFERS TO THE TREASURY GENERAL FUND (dollars in millions)
                                                                                                                     % Change
                                        2010      2009               2008                2007                2006    2009 to 2010

              On-Budget               $ 13.0    $ 35.0         $       15.0          $     43.0          $    84.0     (62.9%)
              Off-Budget              $ 375.0   $ 440.0        $      735.0          $    782.0          $   666.0     (14.8%)
              Total Transfer          $ 388.0   $ 475.0        $      750.0          $    825.0          $   750.0     (18.3%)



                                                          39
   United States Mint at West Point employee Keith Gopel checks the hardness of silver blanks.
The United States Mint has established specifications for hardness, so employees must test incoming
                       blank shipments to make sure they meet the criteria.




                                               40
Performance Goals, Objectives and Results

As mandated by the Government Performance & Results Act of 1993, agencies are to identify critical activities,
devise pertinent performance measures, and report on these activities to the President and Congress. In FY 2010, the
United States Mint developed new strategic goals focused on effectively meeting all circulating demand; effectively
managing bullion and numismatic programs; a safe, engaged, productive and valued workforce; and leadership and
organizational excellence. The organization’s progress in achieving each of these goals was presented in earlier
sections in this report. To assess performance on primary budget activities, the United States Mint monitors six key
performance measures.
SEIGNIORAGE PER DOLLAR ISSUED
Seigniorage per dollar issued is the return to circulating operations, calculated as seigniorage divided by the total
face value of circulated coinage shipped to Federal Reserve Banks (FRB).
Seigniorage per dollar issued was $0.49 in FY 2010, below the performance target of $0.53. Base metal expenses
and the mix of circulating coin ordered by the FRB largely determine seigniorage per dollar issued performance.
In FY 2010, increasing metal costs and a shift in the mix of ordered coins toward lower denominations reduced
seigniorage per dollar issued. Market prices of copper, nickel and zinc recovered from FY 2009 lows and climbed
back to prior fiscal year levels. This caused circulating COGS to increase relative to the value of shipments. The
composition of circulating coins ordered by the FRB shifted to lower denomination coins. Higher shipments of
one-cent and five-cent coins reduce seigniorage relative to the value of shipments because these coins are minted
and issued at costs that exceeds their face values.
Metal market prices are expected to hold at higher levels as the global economy improves. To mitigate the challenge
of rising metal prices, the United States Mint and the Department of the Treasury continue to work with Congress
to examine options for changing the composition of circulating coinage to less expensive materials. This would
improve future seigniorage per dollar issued performance.
CIRCULATING ON-TIME DELIVERY
Circulating on-time delivery is the percentage of total scheduled orders shipped on time to the FRB. The United
States Mint is responsible for providing the Nation’s coinage in quantities that the Secretary of the Treasury
determines to be necessary to meet the needs of the United States. To accomplish this mission, the United States
Mint must supply coinage in the quantities and timelines specified by the FRB. The FRB is then responsible for
distributing coinage to the commercial banks.
The United States Mint shipped 99.8 percent of scheduled orders on time to the FRB in FY 2010. This was a baseline
year for the performance measure so no target was set. The bureau continuously monitors the circulating supply
chain to ensure circulating coins are timely and accurately provided to the FRB.
SAFETY INCIDENT RECORDABLE RATE
The safety incident recordable rate is the number of injuries and illnesses meeting the Occupational Safety and
Health Administration recording criteria per 100 full-time workers. It measures the occurrence of work-related
incidents involving death, lost time and restricted work, loss of consciousness, and medical treatment. This definition
follows Part 1904 of Title 29, Code of Federal Register (29 C.F.R. Part 1904).
The safety incident recordable rate fell to 2.29 in FY 2010, below the 3.86 target and down from 2.50 in FY 2009.
The United States Mint will continue to place a high priority on ensuring employee safety.




                                                           41
NUMISMATIC CUSTOMER BASE
The numismatic customer base consists of the total number of unique purchasers within a fiscal year. A unique
purchaser is defined as an account number and address and name combination without a prior purchase in the
fiscal year.
The numismatic customer based totaled 798,515 in FY 2010, below the target of 976,000 and down from 1.06 million
in FY 2009. The United States Mint customer retention and acquisition performance declined because the bureau
was unable to offer key gold and silver numismatic products for sale after January 2009. In particular, popular
American Eagle numismatic products were unavailable because precious metal planchets were diverted to the
bullion program in accordance with the United States Mint’s statutory requirement to fulfill bullion demand.
Economic conditions may have also curtailed customer spending on collectibles from prior years.
By the close of FY 2010, the United States Mint had sufficiently expanded gold and silver planchet supply to fulfill
bullion demand and redirect a portion of blanks for numismatic production. Releasing popular gold and silver
numismatic products is expected to improve customer retention and acquisition as well as customer satisfaction in
FY 2011. The United States Mint will also work to identify and remedy inhibitors to customer satisfaction in the
upcoming fiscal year.
CUSTOMER SATISFACTION INDEX (CSI)
The United States Mint conducts a quarterly Customer Satisfaction Measure Tracking Survey among a random
sample of active customers. The survey is intended to capture customer satisfaction with the United States Mint’s
performance as a coin supplier and the quality of specific numismatic products. CSI is as a single quantitative score
of survey results.
CSI was 86.1 percent in FY 2010, below the target of 88.0 percent and down from the FY 2009 result of 88.3
percent. Satisfaction with performance as a coin supplier declined through most of FY 2010. About 77.0 percent of
respondents reported high satisfaction with the United States Mint’s performance in this category, down from 80.5
percent in FY 2009. Customer satisfaction with product quality declined slightly from FY 2009 but remained strong,
with 95.2 percent of respondents highly satisfied with the quality of products.
At the close of FY 2010, the United States Mint began repositioning manufacturing and sales operations to offer
popular numismatic products for sale beginning in January 2011. The bureau expects early release of core products
will augment numismatic sales and customer satisfaction in FY 2011.
PROTECTION COST PER SQUARE FOOT
Protection cost per square foot is the Protection Department’s total operating cost divided by the area of usable space
of the United States Mint. Usable space is defined as 90 percent of total square footage. Operating costs exclude
depreciation. Total square footage of usable space is relatively constant and only changes with major events such as
the addition or removal of a facility. The measure indicates the Protection Department’s cost efficiency in safeguarding
United States Mint facilities, employees and assets.
Protection cost per square foot increased to $32.26 in FY 2010 from $31.57 last year. The FY 2010 result was $0.51
above the target of $31.75. The Protection Department total operating cost increased by approximately $936,568
(2.2 percent) from FY 2009. The Protection Department significantly reduced travel, transportation, rent, communi-
cation and utilities expenses from last fiscal year. However, these cuts were more than offset by standard growth
in expenses for personnel compensation and benefits.
The Protection Department will continue efforts to contain costs while fulfilling protection responsibilities in FY 2011.



                                                          42
Budget Performance Measures

                                        2010 Result       2010 Target        2009             2008            2007         2006

Seigniorage per Dollar Issued       $        0.49     $        0.53 $        0.55    $        0.55    $       0.58    $     0.53
Circulating On-Time Delivery               99.8%           Baseline 	n/a                        n/a             n/a          n/a
Safety Incident Recordable Rate              2.29              3.86          2.50             4.10            3.84          3.45
Numismatic Customer Base             0.799 million     0.976 million  1.06 million     1.27 million    0.97 million          n/a
Customer Satisfaction Index (CSI)          86.1%             88.0%         88.3%            87.5%           90.5%         90.5%
Protection Cost per Square Foot     $       32.26     $       31.75 $       31.57    $       31.76    $      31.29    $    32.49




                                                      43
Analysis of Systems, Controls and Legal Compliance

The United States Mint is responsible for establishing and maintaining effective internal control over financial
reporting, which includes safeguarding of assets and compliance with laws and regulations. The United States Mint
has made a conscious effort to meet the internal control requirements of the Federal Manager’s Financial Integrity
Act (FMFIA), the Federal Financial Management Improvement Act (FFMIA), the Office of Management and
Budget (OMB) Circular A-123, and the Reports Consolidation Act of 2000. The departments under the United
States Mint’s purview are operating in accordance with the procedures and standards prescribed by the Comptroller
General and Office of Management and Budget guidelines.
The systems of management controls for the United States Mint are designed to ensure that:
• programs achieve their intended results;
• resources are used consistently with the overall mission;
• programs and resources are free from waste, fraud and mismanagement;
• laws and regulations are followed;
• controls are sufficient to minimize any improper or erroneous payments;
• performance information is reliable;
• systems security is in substantial compliance with all relevant requirements;
• continuity of operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
• fi
   nancial management systems are in compliance with Federal financial systems standards, i.e.,
  FMFIA Section 4 and FFMIA.
For all United States Mint responsibilities, we provide herein unqualified assurance that the above listed management
control objectives, taken as a whole, were achieved by our organization during FY 2010. Specifically, this assurance
is provided relative to Sections 2 and 4 of the FMFIA. We further assure that our financial management systems are
in substantial compliance with requirements imposed by the FFMIA.
In 2010, we conducted the mandatory Treasury evaluation of the effectiveness of the United States Mint’s internal
controls over financial reporting in accordance with OMB Circular A-123, Management’s Responsibility for Internal
Control, Appendix A. Based on the results of this evaluation, the United States Mint can provide unqualified
assurance that internal control over financial reporting as of June 30, 2010, is operating effectively, and no material
weaknesses were found in the design or operation of the internal controls over financial reporting.




                                                           44
In addition, the United States Mint has committed to maintaining effective internal control as demonstrated by the
following actions:
• A
   nnual audits of the United States Mint’s financial statements pursuant to the Chief Financial Officers Act, as
  amended, including a) information revealed in preparing the financial statements; b) auditor’s reports on the
  financial statements; c) internal controls and compliance with laws and regulations and other materials related to
  preparing financial statements.
• Tracking and closure of corrective actions identified in the Financial Statement Audit and A-123 Assessment.
• Internal management and program reviews conducted for the purpose of assessing management controls.
• A
   nnual Action Items developed by the United States Mint’s Senior Staff to implement organization-wide
  initiatives and promote internal efficiencies, cultural accountability and greater public awareness.
• Reviews of financial systems for requirements compliance in conjunction with OMB Circular A-127 and FFMIA.
• Reviews of systems, applications and contingency plans conducted pursuant to the Computer Security Act of 1987
   (40 U.S.C. § 759 note) and OMB Circular A-130, Management of Federal Information Resources.
• A
   nnual assessments, reviews and reporting performed in compliance with the Improper Payment Information
  Act (IPIA).
• Reviews and reporting in compliance with the Federal Information Security Management Act (FISMA).
The United States Mint is committed to continue to monitor and improve its internal controls throughout
the entire organization.




                                                         45
Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations
of the United States Mint, pursuant to the requirements of 31 U.S.C. § 3515(b). The statements have been prepared
from the books and records of the United States Mint in accordance with generally accepted accounting principles
for Federal entities and the formats prescribed by the Office of Management and Budget. The statements are in
addition to the financial reports used to monitor and control budgetary resources, which are prepared from the same
books and records. The statements should be read with the realization that they are for a component of the United
States Government.




                                                        46
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                                          Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the accompanying balance sheets of the United States Mint as of September 30, 2010 and
2009, and the related statements of net cost, changes in net position, and combined statements of budgetary
resources (hereinafter referred to as “financial statements”) for the years then ended. These financial
statements are the responsibility of the United States Mint’s management. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the United States
Mint’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the United States Mint as of September 30, 2010 and 2009, and its net costs, changes
in net position, and budgetary resources for the years then ended in conformity with U.S. generally
accepted accounting principles.

The information in the Management’s Discussion and Analysis, and Required Supplementary Information,
is not a required part of the financial statements, but is supplementary information required by U.S.
generally accepted accounting principles. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.




                                                                     47

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the United States Mint at a Glance, Director’s Letter, Organizational Profile,
Our Goals and Appendix 1: FY 2010 Coin and Medal Products are presented for purposes of additional
analysis and are not required as part of the financial statements. This information has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 2,
2010, on our consideration of the United States Mint’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, and contracts and other matters. The
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




December 2, 2010




                                                     48
Department of the Treasury United States Mint
BALANCE SHEETS
(dollars in thousands)
                                                                                    As of September 30,
                                                                             2010                         2009


Assets
Intragovernmental:
  Fund Balance with Treasury (Note 3)				                                $   331,944		              $      429,476
  Accounts Receivable, Net (Note 4)				                                          456		                         406
  Advances and Prepayments (Note 5)				                                        3,178		                       2,877
Total Intragovernmental Assets					                                          335,578		                     432,759

 Custodial Gold and Silver Reserves (Notes 6)			                           10,493,740		               10,493,740
 Accounts Receivable, Net (Note 4)				                                          7,365		                    6,890
 Inventory (Notes 7 and 20)					                                              451,560		                  354,900
 Supplies							                                                               17,138		                   16,815
 Property, Plant and Equipment, Net (Note 8)			                               190,295		                  200,148
 Advances and Prepayments (Note 5)				                                              2		                        2
Total Non-Intragovernmental Assets				                                   $ 11,160,100		             $ 11,072,495
Total Assets (Notes 2 and 14)					                                       $ 11,495,678		             $ 11,505,254

Heritage Assets (Note 9)

Liabilities
Intragovernmental:
  Accounts Payable						                                                 $    5,798		               $        5,597
  Accrued Workers’ Compensation and Benefits			                               8,857		                        7,831
Total Intragovernmental Liabilities				                                      14,655		                       13,428

 Custodial Liability to Treasury (Note 6)				                              10,493,740		               10,493,740
 Accounts Payable						                                                        32,720		                   41,697
 Surcharges Payable (Note 3)					                                              13,055		                    7,330
 Accrued Payroll and Benefits					                                             17,834		                   17,409
 Other Actuarial Liabilities					                                              26,663		                   25,380
 Unearned Revenue						                                                         1,846		                    1,710
 Deposit Fund Liability					                                                       94		                       25
Total Non-Intragovernmental Liabilities				                              $ 10,585,952		             $ 10,587,291
Total Liabilities (Notes 10 and 14)				                                  $ 10,600,607		             $ 10,600,719

Commitments and Contingencies (Notes 12, 13 and 20)

Net Position
Cumulative Results of Operations - Earmarked Funds (Note 14)	                 895,071		                  904,535
Total Liabilities and Net Position				                                   $ 11,495,678		             $ 11,505,254

The accompanying notes are an integral part of these financial statements.




                                                  49
Department of the Treasury United States Mint
STATEMENTS OF NET COST
(dollars in thousands)
                                                                               For the years ended September 30,
                                                                                2010                      2009


Numismatic Production and Sales
 Gross Cost						                                                        $    3,157,758		              $    2,054,905
 Less Earned Revenue (Note 16)				                                           (3,250,844)		                 (2,109,436)
Net Program Cost (Revenue)					                                                  (93,086)		                    (54,531)

Numismatic Production and Sales of Circulating Coins
 Gross Cost						                                                                5,740		                        6,145
 Less Earned Revenue (Note 16)				                                              (5,740)		                      (6,145)
Net Program Cost						                                                           –			                           –	

Circulating Production and Sales
 Gross Cost						                                                              317,357		                      349,843
 Less Earned Revenue (Note 16)				                                            (317,357)		                    (349,843)
Net Program Cost						                                                           –			                           –	

Net Program Cost (Revenue) Before Protection of Assets		                       (93,086)		                     (54,531)

Protection of Assets
 Protection Costs						                                                        41,547		                       41,102
 Less Earned Revenue (Note 16)					                                                (3)		                       –
Net Cost of Protection Assets					                                             41,544		                       41,102

Net Cost (Revenue) from Operations (Notes 14 and 15)		                   $     (51,542)		              $      (13,429)

The accompanying notes are an integral part of these financial statements.




                                                            50
Department of the Treasury United States Mint
STATEMENTS OF CHANGES IN NET POSITION
(dollars in thousands)
                                                                              For the years ended September 30,
                                                                               2010                      2009


Cumulative Results of Operations

Net Position, Beginning of Year - Earmarked Funds (Note 14)	             $   904,535		                $    906,374

Financing Sources:
  Transfers to the Treasury General Fund On-Budget (Note 19)		                (13,000)		                   (35,000)
  Transfers to the Treasury General Fund Off-Budget (Note 19)		              (375,000)		                  (440,000)
  Other Financing Sources (Seigniorage) (Note 16)			                          312,814		                    447,068
  Imputed Financing Sources (Note 11)				                                       14,180		                     11,834
  Transfers in Without Reimbursement				                                         –			                           830
Total Financing Sources					                                                   (61,006)		                   (15,268)
Net Revenue from Operations					                                                 51,542		                    13,429
Net Position, End of Year - Earmarked Funds (Note 14)		                  $     895,071		              $    904,535

The accompanying notes are an integral part of these financial statements.




                                                             51
Department of the Treasury United States Mint
STATEMENTS OF BUDGETARY RESOURCES
(dollars in thousands)
                                                                               For the years ended September 30,
                                                                                2010                      2009


Budgetary Resources
Unobligated balance, brought forward October 1			                        $    245,683		                $      50,858
Recoveries of prior-year unpaid obligations			                                 28,879		                       54,939
Budget authority
 Spending authority from offsetting collections
   Earned
     Collected						                                                         3,519,214		                   2,467,058
     Change in receivable from federal sources			                                   50		                           7
   Change in unfilled customer orders
     Advance received					                                                       136		                       (9,313)
     Without advance from federal sources			                                     792		                         (369)
   Subtotal						                                                          3,520,192		                   2,457,383
Permanently not available					                                               (13,000)		                    (35,000)
Total Budgetary Resources					                                           $ 3,781,754		                 $ 2,528,180

Status of Budgetary Resources
Obligations incurred
  Reimbursable (Note 17 and Note 21)				                                 $   3,670,761		               $   2,282,497
Unobligated balances
 Apportioned						                                                             110,993		                     245,683
Total Status of Budgetary Resources				                                  $   3,781,754		               $   2,528,180

Change in Obligated Balances
Obligated balance, net
  Unpaid obligations, brought forward, October 1			                      $    190,523		                $     259,645
  Less: Uncollected customer payments from federal sources,
	         brought forward, October 1				                                       (6,755)		                      (7,117)
  Total unpaid obligated balance, net				                                     183,768		                      252,528

Obligations incurred, net (Note 17)				                                       3,670,761		                   2,282,497
Gross outlays						                                                          (3,603,950)		                 (2,296,680)
Recoveries of prior-year unpaid obligations, actual			                           (28,879)		                    (54,939)
Change in uncollected customer payments from federal sources	                       (842)		                        362
Obligated balance, net, end of the period
 Unpaid obligations						                                                     228,454		                      190,523
 Uncollected customer payments from federal sources		                          (7,598)		                      (6,755)
 Total unpaid obligated balance, net, end of period			                        220,856		                      183,768

Net Outlays
Net outlays
 Gross outlays						                                                        3,603,950		                   2,296,680
 Collections						                                                         (3,519,349)		                 (2,457,745)
Total Outlays						                                                      $     84,601		                $   (161,065)

The accompanying notes are an integral part of these financial statements.


                                                  52
Notes to the Financial Statements
For the Years Ended September 30, 2010 and 2009
(dollars are in thousands except Fine Troy Ounce information)



             1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
             REPORTING ENTITY Established in 1792, the United States Mint is a bureau of the Department
             of the Treasury (Treasury). The mission of the United States Mint is as follows: To manufacture and
             distribute circulating coins, precious metals and collectible coins, and national medals to meet the
             needs of the United States. Numismatic products include medals; proof coins; uncirculated coins;
             platinum, gold, and silver bullion coins; commemorative coins; and related products or accessories.
             Custodial assets consist of the Treasury-owned gold and silver bullion reserves. These custodial reserves
             are often referred to as “deep storage” and “working stock,” and are reported on the Balance Sheet.
             The production of numismatic products is financed through sales to the public. The production of
             circulating coinage is financed through sales of coins at face value to the Federal Reserve Banks
             (FRB). Additionally, the United States Mint sells certain circulating products directly to the public as
             numismatic items. Activities related to protection of Treasury-owned custodial assets are funded by the
             United States Mint Public Enterprise Fund (PEF).
             Pursuant to Public Law (P.L.) 104-52, Treasury, Postal Service, and General Government Appro-
             priation Act for FY 1996, as codified at 31 U.S.C. § 5136, the PEF was established to account for all
             receipts and expenses related to production and sale of numismatic items and circulating coinage, as
             well as protection activities. Expenses accounted for in the PEF include the entire cost of operating the
             United States Mint. Any amount in the PEF that is determined to be in excess of the amount required
             by the PEF shall be transferred to the Treasury General Fund.
             Treasury’s Bullion Fund (Bullion Fund) is used to account for Treasury-owned gold and silver reserves.
             A separate Schedule of Custodial Deep Storage Gold and Silver Reserves has been prepared for the
             deep storage portion of the Treasury-owned gold and silver reserves for which the United States Mint
             acts as custodian.
             BASIS OF ACCOUNTING AND PRESENTATION The accompanying financial statements were
             prepared based on the reporting format promulgated by Office of Management and Budget (OMB)
             Circular A-136, Financial Reporting Requirements, and in accordance with accounting standards issued
             by the Federal Accounting Standards Advisory Board (FASAB). The United States Mint’s financial
             statements have been prepared to report the financial position, net cost of operations, changes in net
             position, and budgetary resources, as required by 31 U.S.C. § 5134.
             Management uses estimates and assumptions in preparing financial statements. Those estimates and
             assumptions affect the reported amounts of assets and liabilities, the disclosure of contingent assets and
             liabilities, and the reported revenues and expenses. Actual results could differ from those estimates.
             Accounts subject to estimates include, but are not limited to, depreciation, imputed costs, payroll
             and benefits, accrued worker’s compensation, allowance for uncollectible accounts receivable, and
             unemployment benefits.
             The accompanying financial statements have been prepared on the accrual basis of accounting. Under
             the accrual method, revenues and other financing sources are recognized when earned and expenses are
             recognized when a liability is incurred, without regard to receipt or payment of cash.

                                                         53
EARNED REVENUES AND OTHER FINANCING SOURCES (SEIGNIORAGE)
Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are
shipped to customers. Prices for most numismatic products are based on the product cost plus a
reasonable net margin. Bullion coins are priced based on the market price of the precious metals plus
a premium to cover manufacturing, marketing and distribution costs.
Numismatic Sales of Circulating Coins: Specially packaged products containing circulating coins sold
directly to the public without first being sold to the FRB. These products are treated as a circulating
and numismatic hybrid product. Revenue is recognized when products are shipped to customers.
Circulating Sales: The PEF provides for the sale of circulating coinage at face value to the FRB.
Revenue from the sale of circulating coins is recognized when the product is shipped to the FRB.
Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins to
the public is limited to the recovery of the cost of manufacturing and distributing those coins.
Other Financing Source (Seigniorage): Seigniorage equals the face value of newly minted coins less
the cost of production (which includes the cost of metal, manufacturing, and transportation). Seigniorage
adds to the government’s cash balance, but unlike the payment of taxes or other receipts, it does not
involve a transfer of financial assets from the public. Instead, it arises from the exercise of the govern-
ment’s sovereign power to create money and the public’s desire to hold financial assets in the form
of coins. Therefore, the President’s Budget excludes seigniorage from receipts and treats it as a means
of financing. Seigniorage is recognized when coins are shipped to the FRB in return for deposits
to the PEF.
Rental Revenue: The United States Mint sublets office space at cost to other Federal entities in the two
leased buildings in Washington, DC. In addition, a commercial vendor subleases a portion of the first
floor space of the building at 801 9th Street, NW.
FUND BALANCE WITH TREASURY All cash is maintained at the Treasury. Fund Balance with
Treasury is the aggregate amount of the United States Mint’s cash accounts with the U.S. Government’s
central accounts and from which the United States Mint is authorized to make expenditures. It is an
asset because it represents the United States Mint’s claim to U.S. Government resources.
ACCOUNTS RECEIVABLE Accounts receivable are amounts due to the United States Mint from
the public and other Federal entities. An allowance for uncollectible accounts receivable is established
for all accounts that are more than 180 days past due. However, the United States Mint will continue
collection action on those accounts that are more than 180 days past due, as specified by the Debt
Collection Improvement Act of 1996.
INVENTORIES Inventories of circulating and numismatic coinage are valued at either cost or market,
whichever is lower. Costs of the metal and fabrication components of the inventories are determined
using a weighted average inventory methodology. Conversion costs (i.e., the cost to convert the
fabricated blank into a finished coin) are valued using a standard cost methodology. The United States
Mint uses three classifications for inventory: raw material (raw metal, unprocessed coil or blanks);
work-in-process (WIP – material being transformed to finished coins), and finished goods (coins that
are packaged or bagged and ready for sale or shipment to the public or the FRB).




                                            54
TREASURY-OWNED CUSTODIAL GOLD AND SILVER BULLION RESERVES Treasury-
owned gold and silver reserves consist of both “deep storage” and “working stock” gold and silver.
Deep Storage is defined as that portion of the Treasury-owned Gold and Silver Bullion Reserve which
the United States Mint secures in sealed vaults. Deep storage gold comprises the vast majority of the
Bullion Reserve and consists primarily of gold bars. Deep storage silver is also primarily in bar form.
Working Stock is defined as that portion of the Treasury-owned Gold and Silver Bullion Reserve which
the United States Mint can use as the raw material for minting coins. Working stock gold comprises only
about one percent of the Gold Bullion Reserve and consists of bars, blanks, unsold coins and condemned
coins. Similarly, working stock silver consists of bars, blanks, unsold coins and condemned coins.
Treasury allows the United States Mint to use some of its gold and silver as working stock. Generally,
the United States Mint does not deplete the working stock when used in production. Instead, the United
States Mint will purchase a like amount of gold and silver on the open market to replace the working
stock used. In those rare cases in which the gold or silver is depleted, the United States Mint reimburses
Treasury the current market value of the depleted gold or silver.
SUPPLIES Supplies are items that are not considered inventory and are not a part of the finished
product. These items include plant engineering and maintenance supplies, as well as die steel and coin
dies. Supplies are accounted for using the consumption method, in which supplies are recognized as
assets upon acquisition and expensed as they are consumed.
ADVANCES AND PREPAYMENTS Payments in advance of the receipt of goods and services are
recorded as advances and prepaid expenses at the time of prepayment, and are expensed when related
goods and services are received.
PROPERTY, PLANT AND EQUIPMENT Property, plant and equipment are valued at cost less
accumulated depreciation. The United States Mint’s threshold for capitalizing new property, plant and
equipment is $25,000 for single purchases and $500,000 for bulk purchases. Depreciation is computed
on a straight-line basis over the estimated useful lives of the related assets as follows:
	Computer Equipment					3 to 5 years
	Software							2 to 10 years
	Machinery and Equipment					                          7 to 20 years
	 Structures, Facilities and Leasehold Improvements			 10 to 30 years

Major alterations and renovations are capitalized over the shorter of a 20-year period or the remaining
useful life of the asset and depreciated using the straight-line method, while maintenance and repair
costs are charged to expense as incurred. There are no restrictions on the use or convertibility of general
property, plant and equipment.
HERITAGE ASSETS Heritage assets are items that are unique because of their historical, cultural,
educational, or artistic importance. These items are collection-type assets that are maintained for
exhibition and are preserved indefinitely.
Liabilities Liabilities represent actual and estimated amounts likely to be paid as a result of
transactions or events that have already occurred. All liabilities covered by budgetary resources can
be paid from revenues received by the PEF.
SURCHARGES Legislation authorizing commemorative coin programs often requires that the sales
price of each coin include an amount, called a surcharge, which is authorized to provide funds to a
qualifying organization or group of organizations for the purposes specified. A surcharges payable
account is established for surcharges collected, but not yet paid, to designated recipient organizations.


                                             55
Recipient organizations cannot receive surcharge payments unless all of the United States Mint’s
operating costs for the coin program are fully recovered. The United States Mint may make interim
surcharge payments during a commemorative program if the recipient organization meets the eligibil-
ity criteria in the authorizing legislation, if the recovery of all costs of the program is determinable,
and if the United States Mint is assured it is not at risk of a loss. Additionally, recipient organizations
must demonstrate that they have raised from private sources an amount equal to or greater than the
surcharges collected based on sales, and recipient organizations must prove compliance with Title VI
of the Civil Rights Act of 1964. A recipient organization has two years from the end of the program to
meet the matching requirement.
EARMARKED FUNDS Pursuant to P.L. 104-52, the PEF was established as the sole funding source
for United States Mint activities. The PEF meets the requirements of an earmarked fund as defined in
Statement of Federal Financial Accounting Standard (SFFAS) 27, Identifying and Reporting Earmarked
Funds. As non-entity and non-PEF assets, the Treasury-owned gold and silver bullion reserves are not
considered to be earmarked funds.
UNEARNED REVENUES These are amounts received for numismatic orders which have not yet
been shipped to the customer.
RETURN POLICY If for any reason a numismatic customer is dissatisfied, the entire product must be
returned within seven days of receiving the order to receive a refund or replacement. Shipping charges
are not refunded. Further, the United States Mint will not accept partial returns or issue partial refunds.
Historically, the United States Mint receives few returns, which are immaterial. Therefore, no reserve
for returns is considered necessary.
SHIPPING AND HANDLING The United States Mint reports shipping and handling costs of circulat-
ing coins and numismatic products as a cost of goods sold. General postage costs for handling adminis-
trative mailings are reported as part of the United States Mint’s general and administrative expenses.
ANNUAL, SICK AND OTHER LEAVE Annual leave is accrued when earned and reduced as leave
is taken. The balance in the accrued leave account is calculated using current pay rates. Sick leave and
other types of non-vested leave are charged to operating costs as they are used.
ACCRUED WORKERS’ COMPENSATION AND OTHER ACTUARIAL LIABILITIES The
Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to cover
Federal civilian employees injured on the job or who have developed a work-related occupational
disease, and to pay beneficiaries of employees whose deaths are attributable to job-related injuries or
occupational disease. The FECA program is administered by the United States Department of Labor
(DOL), which pays valid claims and subsequently seeks reimbursement from the United States Mint
for these paid claims.
The FECA liability is based on two components. The first component is based on actual claims paid
by DOL but not yet reimbursed by the United States Mint. There is generally a two- to three-year time
period between payment by DOL and DOL’s requesting payment from the United States Mint. The
second component is the actuarial liability, which estimates the liability for future payments as a result
of past events. The actuarial liability includes the expected liability for death, disability, medical and
miscellaneous costs for approved compensation cases.
PROTECTION COSTS Treasury-owned gold and silver reserves are in the custody of the United
States Mint, which is responsible for safeguarding the reserves. These costs are borne by the United
States Mint, but are not directly related to the circulating or numismatic coining operations of the


                                             56
United States Mint. The Protection Department is a separate function from coining operations and is
responsible for safeguarding the reserves as well as United States Mint employees and facilities.
OTHER COST AND EXPENSES (MUTILATED AND UNCURRENT) Other costs and expenses
consist primarily of returns of mutilated or uncurrent coins to the United States Mint. Coins that are
chipped, fused and/or not machine-countable are considered mutilated. The United States Mint
reimburses the entity that sent in the mutilated coins, using weight formulas that estimate the face
value of these coins. Uncurrent coins are worn, but machine-countable, and their genuineness and
denominations are still recognizable. Uncurrent coins are replaced with new coins of the same denomi-
nation by the FRB. The FRB then seeks replacement coins from the United States Mint. All mutilated
or uncurrent coins received by the United States Mint are sold to its fabrication contractors to be
processed into coils or blanks to be used in future coin production.
TAX EXEMPT STATUS As an agency of the Federal Government, the United States Mint is exempt
from all taxes imposed by any governing body, whether it is a Federal, state, commonwealth, local or
foreign government.
CONCENTRATIONS The United States Mint purchases the coil and blanks used in the production
of circulating coins from three vendors at competitive market prices. The United States Mint also pur-
chases precious metal blanks from five different suppliers, an increase of one supplier from FY 2009.
Contingent Liabilities Certain conditions exist as of the date of the financial statements
that may result in a loss to the government, but which will be resolved only when one or more future
events occur or fail to occur. The United States Mint recognizes a loss contingency when the future
outflow or other sacrifice of resources is probable and reasonably estimable. Loss contingencies that
are determined by management to have a reasonably possible chance of occurring or that cannot be
estimated are included as a footnote to the financial statements. Contingent liabilities considered
remote are generally not disclosed unless they involve guarantees, in which case the nature of the
guarantee is disclosed.
TRANSFERS TO THE TREASURY GENERAL FUND The United States Mint transfers amounts
determined to be in excess of the amounts required for United States Mint operations and programs to
the Treasury General Fund periodically throughout the fiscal year.
Seigniorage derived from the sale of circulating coins and from net income from the revenues generated
by the sale of numismatic products containing circulating coins is an off-budget receipt to the Treasury
General Fund. Off-budget means that these funds cannot be used to reduce the annual budget deficit.
Instead, they are used as a financing source (i.e., they reduce the amount of cash that Treasury has to
borrow to pay interest on the national debt).
Revenues generated from the sale of numismatic products are transferred to the Treasury General Fund
as an on-budget receipt. Unlike seigniorage, the numismatic transfer amount is available to the Federal
government as current operating cash or it can be used to reduce the annual budget deficit.
BUDGETARY RESOURCES The United States Mint does not receive an appropriation from the
Congress. Instead, the United States Mint receives all financing from the public and the FRB, and
receives an apportionment of those funds from OMB. This apportionment is considered a budgetary
authority, which allows the United States Mint to spend the funds. The United States Mint’s budgetary
resources consist of unobligated balances, transfers, and spending authority from offsetting collections,
which is net of amounts that are permanently not available. “Permanently not available” funds are
on-budget transfers to the General Fund.


                                            57
Hedging The United States Mint engages in a hedging program to avoid fluctuation in silver costs
as a result of the changes in market prices. The United States Mint purchases silver in large quantities
and sells an interest in that silver to a trading partner, while maintaining physical custody and title to
the silver. Sales of silver to the trading partner are made at the same spot price that the United States
Mint paid to obtain the silver on the open market. The partner’s interest in United States Mint silver
is reduced as finished silver bullion coins are sold to authorized purchasers (APs). Repurchases of the
trading partner’s interest in the silver occurs upon sale of coins by the United States Mint. Repurchases
are made on the same day as sales, in the same quantity sold, and using the same spot price as was
used for the sale to the AP. Each sale to and from the trading partner carries a small transaction fee, the
selling and buying fees net to a cost of one-half cent per ounce. The United States Mint incurred $170
thousand in hedging fees in FY 2010, compared to $121 thousand incurred in FY 2009.
2. NON-ENTITY ASSETS
Components of Non-entity Assets as of September 30 are as follows:
						 2010			 2009
Custodial Gold Reserves (Deep Storage)			   $ 10,355,539		 $ 10,355,539
Custodial Silver Reserves (Deep Storage)			        9,148		        9,148
Custodial Gold Reserves (Working Stock)			       117,514		      117,514
Custodial Silver Reserves (Working Stock)		       11,539		       11,539
Total Non-entity Assets				                   10,493,740		   10,493,740
Total Entity Assets					                       1,001,938		    1,011,514
Total Assets					                           $ 11,495,678		 $ 11,505,254

Entity assets are assets that the reporting entity has authority to use in its operations. United States
Mint management has legal authority to use entity assets to meet entity obligations. Treasury-owned
gold and silver bullion reserves, for which the United States Mint is custodian, are non-entity assets.
3. FUND BALANCE WITH TREASURY
Fund Balance with Treasury as of September 30 consists of the following:
						 2010			 2009
Revolving Fund					                 $ 331,850			 $ 429,451
Other						                                94			        25
Total Fund Balance with Treasury			 $ 331,944			 $ 429,476

Status of Fund Balance with Treasury
Unobligated Balance					                                $ 110,993			                $ 245,683
Obligated Balance, Not Yet Disbursed			                   220,857			                  183,768
Non-Budgetary FBWT				                                         94			                       25
Total						                                             $ 331,944			                $ 429,476

The United States Mint does not receive appropriated budget authority. The Fund Balance with Treasury
is entirely available for use to support United States Mint operations. At September 30, 2010 and 2009,
the revolving fund balance included $13.1 million and $7.3 million, respectively, in restricted amounts
for possible payment of surcharges to recipient organizations.




                                             58
4. ACCOUNTS RECEIVABLE, NET
Components of accounts receivable are as follows:
						                                  September 30, 2010
				Gross Receivables		Allowance	Net Receivables
Intragovernmental			        $ 6,402			       ($5,946)		    $   456
With the Public			             9,055			       (1,690)		      7,365
Total Accounts Receivable		 $ 15,457			      ($7,636)		    $ 7,821

						                                  September 30, 2009
				Gross Receivables		Allowance	Net Receivables
Intragovernmental			        $ 6,352			       ($5,946)		    $   406
With the Public			             8,427			       (1,537)		      6,890
Total Accounts Receivable		 $ 14,779			      ($7,483)		    $ 7,296

The Intragovernmental accounts receivable as of September 30, 2010 and 2009 was $6.4 million. This
largely represents amounts due to the United States Mint for a joint numismatic product with another
Federal entity. Management determined that the collection of $5.9 million related to the program was
in doubt and has included that amount in the Allowance for Doubtful Accounts. Receivables with the
public at September 30, 2010, are $9.1 million, of which $6.1 million is owed by fabricators for scrap
and webbing, in addition to amounts owed by the public for numismatic products. This compares to
receivables with the public at September 30, 2009, of $8.4 million, of which $1.6 million was owed by
fabricators for scrap and webbing, in addition to amounts owed by the public for numismatic products.
The allowance for doubtful accounts is the balance of the accounts receivable with the public that is past
due by 180 days or more. Collection action continues on these accounts, but an allowance is recorded.
5. ADVANCES AND PREPAYMENTS
The components of advances and prepayments as of September 30 are as follows:
						 2010			 2009
Intragovernmental					            $ 3,178			 $ 2,877
With the Public					                    2			       2
Total Advances and Prepayments			 $ 3,180			 $ 2,879

Intragovernmental advances and prepayments as of September 30, 2010 and 2009 include $1.7 million
and $2.1 million, respectively, that the United States Mint paid the Treasury Working Capital Fund for
a variety of centralized services. The remaining balance of approximately $1.4 million represents pay-
ments made to the United States Postal Service for product delivery services as of September 30, 2010,
compared to approximately $700 thousand paid at September 30, 2009. Advances with the public for
both FY 2010 and 2009 are outstanding travel advances to United States Mint employees who were
traveling on government business.




                                            59
6. CUSTODIAL GOLD AND SILVER BULLION RESERVES
As custodian, the United States Mint is responsible for safeguarding much of the Treasury-owned gold
and silver bullion reserves, which include deep storage and working stock. The asset and the custodial
liability to Treasury are reported on the Balance Sheet at statutory rates. In accordance with 31 U.S.C. §
5117(b) and 31 U.S.C. § 5116(b)(2), statutory rates of $42.2222 per fine troy ounce (FTO) of gold and
no less than $1.292929292 per FTO of silver are used to value the entire custodial reserves held by the
United States Mint.
The market value for gold and silver as of September 30 is determined by the London Gold Fixing
(PM) rate. Amounts and values of custodial gold and silver in custody of the United States Mint as
of September 30 are as follows:
						 2010			 2009
Gold - Deep Storage:
  Inventories (FTO)					                            245,262,897		   245,262,897
  Market Value ($ per FTO)				                    $    1,307.00		 $      995.75
  Market Value ($ in thousands)			                $ 320,558,606		 $ 244,220,530
  Statutory Value ($ in thousands)			             $ 10,355,539		  $ 10,355,539
Gold - Working Stock:
  Inventories (FTO)					                              2,783,219		     2,783,219
  Market Value ($ per FTO)				                    $    1,307.00		 $      995.75
  Market Value ($ in thousands)			                $ 3,637,667		   $ 2,771,390
  Statutory Value ($ in thousands)			             $     117,514		 $     117,514
Silver - Deep Storage:
  Inventories (FTO)					                              7,075,171		     7,075,171
  Market Value ($ per FTO)				                    $       22.07		 $       16.45
  Market Value ($ in thousands)			                $     156,149		 $     116,387
  Statutory Value ($ in thousands)			             $       9,148		 $       9,148
Silver - Working Stock:
  Inventories (FTO)					                              8,924,829		     8,924,829
  Market Value ($ per FTO)				                    $       22.07		 $       16.45
Market Value ($ in thousands)				                 $     196,971		 $     146,813
Statutory Value ($ in thousands)			               $      11,539		 $      11,539
Total Market Value of Custodial Gold
	          and Silver Reserves ($ in thousands)		 $ 324,549,393		 $ 247,255,119
Total Statutory Value of Custodial Gold
	          and Silver Reserves ($ in thousands)		 $ 10,493,740		  $ 10,493,740




                                            60
7. INVENTORY
The components of inventories as of September 30 are summarized below:
						 2010			 2009
Raw Materials					                  $ 243,903			 $ 191,320
Work-In-Process					                  109,933			    68,364
Inventory held for current sale				    97,724			    95,216
Total Inventory					                $ 451,560			 $ 354,900

Raw materials consist of unprocessed materials and by-products of the manufacturing process and the
metal value of unusable inventory, such as scrap or condemned coins, that will be recycled into a usable
raw material. In addition, as of September 30, 2010 and 2009, the raw material inventory includes
$33.1 million and $88.0 million, respectively, in fair market value silver hedge activity, of which
additional information can be found in note 20. Work-In-Process consists of semi-finished materials.
8. PROPERTY, PLANT AND EQUIPMENT, NET
Components of property, plant and equipment are as follows:
						                                    September 30, 2010			
				Asset Cost	Accumulated Depreciation	Total Property, Plant
						and Amortization		and Equipment, Net
Land				                   $ 2,529		   $        –		          $   2,529
Structures, Facilities and
  Leasehold Improvements		   217,840		   (141,780)		            76,060
Computer Equipment		          30,229		    (28,332)		             1,897
Software				                  19,136		    (18,014)		             1,122
Construction-In-Progress		     9,305		          –		              9,305
Machinery and Equipment		    275,091		   (175,709)		            99,382
Total Property, Plant
  and Equipment, Net		     $ 554,130		  ($363,835)		         $ 190,295

						                                    September 30, 2009			
				Asset Cost	Accumulated Depreciation	Total Property, Plant
						and Amortization		and Equipment, Net
Land				                   $ 2,529		   $        –		          $   2,529
Structures, Facilities and
  Leasehold Improvements		   203,374		   (132,661)		            70,713
Computer Equipment		          29,352		    (27,703)		             1,649
Software				                  57,099		    (55,305)		             1,794
Construction-In-Progress		    17,125		          –		             17,125
Machinery and Equipment		    265,843		   (159,505)		           106,338
Total Property, Plant
  and Equipment, Net		     $ 575,322		  ($375,174)		         $ 200,148


The land and buildings used to manufacture circulating coinage and numismatic products are owned
by the United States Mint and located in Philadelphia, Pennsylvania; Denver, Colorado; San Francisco,
California; and West Point, New York. In addition, the United States Mint owns the land and buildings
at the United States Bullion Depository at Fort Knox. Construction-In-Progress (CIP) represents assets
that are underway, such as in the process of being readied for use, or which are being tested for accept-
ability, but which are not yet being fully utilized by the United States Mint.
Depreciation and amortization expenses charged to operations during the years ended September 30,
2010 and 2009, were $32.7 million and $34.2 million, respectively.



                                            61
9. HERITAGE ASSETS
The United States Mint maintains collections of heritage assets which are any property, plant
or equipment that is retained by the United States Mint for its historic, natural, cultural, educational
or artistic value or significant architectural characteristics. For example, the United States Mint’s
Historical Artifacts contain, among other things, examples of furniture and equipment used in the United
States Mint facilities over the years, as well as examples of the coin manufacturing process, such as
plasters, galvanos, dies, punches and actual finished coins. The Coin Collections include examples
of the various coins produced by the United States Mint over the years, separated into collections of
pattern pieces/prototypes, coin specimens, quality samples and exotic metal coin samples. The building
housing the United States Mint at Denver, is considered a multi-use heritage asset. The United States
Mint generally does not place a value on heritage assets, even though some of the coins and artifacts
are priceless. However, the assets are accounted for and controlled for protection and conservation
purposes. Heritage assets held by the United States Mint are generally in acceptable physical condition.
The following chart represents the United States Mint’s various collections and historical artifacts.


Coin Collections					         Quantity of Collections Held September 30,
						 2010			 2009
Pattern Pieces/Prototypes				 1			                           1
Coin Specimens					           1			                           1
Quality Samples					          1			                           1
Exotic Metal Coin Samples				 1			                           1
Total						                   4			                           4

Historical Artifacts					 Quantity of Collections Held September 30,
						 2010			 2009
Antiques/Artifacts					                 1			             1
Plasters						                          1			             1
Galvanos						                          1			             1
Dies						                              1			             1
Punches						                           1			             1
Historical Documents				                1			             1
Multi-use heritage asset
  (United States Mint at Denver, CO)			 1			             1
Total						                             7			             7

10. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
Components of Liabilities Not Covered by Budgetary Resources as of September 30 are as follows:
						 2010			 2009
Custodial Gold Reserves (Deep Storage)			             $ 10,355,539		 $ 10,355,539
Custodial Silver Reserves (Deep Storage)			                  9,148		        9,148
Working Stock Inventory - Gold			                          117,514		      117,514
Working Stock Inventory - Silver			                         11,539		       11,539
Other						                                                     94		           25
Total Liabilities Not Covered by Budgetary Resources	 $ 10,493,834		 $ 10,493,765
Total Liabilities Covered by Budgetary Resources		         106,773		      106,954
Total Liabilities					                                $ 10,600,607		 $ 10,600,719

Liabilities not covered by budgetary resources represent the United States Mint’s custodial liabilities
to the Treasury that are entirely offset by Treasury-owned gold and silver bullion reserves held
by the United States Mint on behalf of the Federal Government. The category “Other” represents
the refundable security deposit received from the commercial tenant in the Headquarters building.



                                            62
11. RETIREMENT PLANS, OTHER POST-EMPLOYMENT COSTS AND OTHER
IMPUTED COSTS
The United States Mint contributes seven percent of basic pay for employees participating in the Civil
Service Retirement System (CSRS). Most employees hired after December 31, 1983, are automatically
covered by the Federal Employees’ Retirement System (FERS) and Social Security. A primary feature
of FERS is that it offers a savings plan to which the United States Mint automatically contributes one
percent of basic pay and matches employee contributions up to an additional four percent of basic pay.
Employees can contribute a specific dollar amount or a percentage of their basic pay, as long as the
annual dollar total does not exceed the Internal Revenue Code limit of $16,500 for calendar year 2010.
Employees participating in FERS are covered by the Federal Insurance Contribution Act (FICA), for
which the United States Mint contributes a matching amount to the Social Security Administration.
Although the United States Mint contributes a portion for pension benefits and makes the necessary
payroll deductions, it is not responsible for administering either CSRS or FERS. Administering and
reporting on pension benefit programs are the responsibility of the Office of Personnel Management
(OPM). OPM has provided the United States Mint with certain cost factors that estimate the cost of
providing the pension benefit to current employees. The cost factors of 30.1 percent of basic pay for
CSRS-covered employees and 13.8 percent of basic pay for FERS-covered employees were in use for
FY 2010. The CSRS factor increased 4.3 percent over FY 2009, and the FERS factor increased 1.5
percent over FY 2009.
The amounts that the United States Mint contributed to the retirement plans and social security for the
year ended September 30 are as follows:
						 2010			 2009
Social Security System				                             $ 7,437			  $ 6,866
Civil Service Retirement System			                        1,514			    1,864
Federal Employees Retirement System
 (Retirement and Thrift Savings Plan)			                 12,157			   11,593
Total Retirement Plans and Other Post-employment Cost	 $ 21,108			 $ 20,323

The United States Mint also recognizes its share of the future cost of pension payments and
post-retirement health and life insurance benefits for employees while they are still working with
an offset classified as imputed financing. OPM continues to report the overall liability of the Federal
Government and make direct recipient payments. OPM has provided certain cost factors that estimate
the true cost of providing the post-retirement benefit to current employees. The cost factors relating to
health benefits are $5,906 and $5,756 per employee enrolled in the Federal Employees Health Benefits
Program in FY 2010 and FY 2009, respectively. The cost factor relating to life insurance is two-one
hundredths percent (.02%) of basic pay for employees enrolled in the Federal Employees Group Life
Insurance Program for both FY 2010 and FY 2009.
The amount of imputed cost related to retirement plans and other post-employment costs incurred
by the United States Mint for the year ended September 30 is as follows (before the offset for
imputing financing):
						 2010			 2009
Health Benefits					                               $ 8,748			  $ 8,738
Life Insurance					                                      21			       24
Pension Expense					                                  5,411			    3,072
Total Imputed Retirement and Postemployment Costs	 $ 14,180			 $ 11,834




                                            63
12. LEASE COMMITMENTS
THE UNITED STATES MINT AS LESSEE: The United States Mint leases office and warehouse
space from commercial vendors, the General Services Administration (GSA) and the Bureau of
Engraving and Printing. In addition, the agency leases copier and other office equipment from
commercial vendors and vehicles from GSA. With the exception of the commercial leases on two
office buildings in Washington, DC, all leases are one-year, or one-year with renewable option years.
The two building leases in Washington, DC have terms of 20 and 10 years. Because all of the United
States Mint’s leases can be canceled, there are no minimum lease payments due.
THE UNITED STATES MINT AS LESSOR: The United States Mint sublets office space at cost
to several other Federal entities in the two leased buildings in Washington, DC. These subleases vary
from one year with option years to multiple-year terms. As of September 30, 2010, the United States
Mint sublet in excess of 209,000 square feet in the two leased buildings. As of September 30, 2010,
tenants include the Internal Revenue Service, Treasury Executive Institute, Bureau of the Public Debt,
U.S. Customs and Border Protection, and U.S. Marshals Service. All of the subleases are operating
leases and subject to annual availability of funding. The United States Mint has also entered into an
agreement to sublet space in the Headquarters building to a commercial tenant. The United States Mint
received a security deposit from the tenant of $94,500. The tenant opened for business in late September
2010, and the first rental payment was received in October 2010. The first two years of the lease offer
substantial discounts. Years three through nine are at the full rental amount.
Future Projected Receipts		              Building Sub-lease

Year 1 (FY 2011)				                          $ 37,800

Year 2 (FY 2012)				                           302,400

Year 3 (FY 2013)				                           378,000

Year 4 (FY 2014)				                           378,000

Year 5 (FY 2015)				                           378,000

Years 6-9 (FY 2016 - FY 2019)		              1,617,840

Total Future Operating Lease Receipts	      $ 3,092,040

13. CONTINGENCIES
The United States Mint is subject to legal proceedings and claims which arise in the ordinary course of
its business. Judgments, if any, resulting from pending litigation against the United States Mint generally
would be satisfied from the PEF. Likewise, under the Notification and Federal Employee Antidiscrimi-
nation and Retaliation Act of 2002 (No FEAR Act, P. L. 107-174), settlements and judgments related
to acts of discrimination and retaliation for whistle blowing will be paid from the PEF. In the opinion
of management, the ultimate resolution of these actions will not materially affect the United States
Mint’s financial position or the results of its operations.
The Chief Counsel of the United States Mint provided a Legal Representation Letter reflecting no
expected loss resulting from pending legal cases. However, the United States Mint was notified of a
No FEAR Act case settlement of $10,000, which was accrued as a liability in the United States Mint’s
general ledger as of September 30, 2010.




                                            64
14. EARMARKED FUNDS
Pursuant to 31 U.S.C. § 5136, “all receipts from United States Mint operations and programs,
including the production and sale of numismatic items, the production and sale of circulating coinage
at face value to the FRB, the protection of government assets, and gifts and bequests of property, real
or personal shall be deposited into the PEF and shall be available to fund its operations without fiscal
year limitations.” The PEF meets the requirements of an earmarked fund as defined in SFFAS 27,
Identifying and Reporting Earmarked Funds. As non-entity and non-PEF assets, the Treasury-owned
gold and silver bullion reserves are not included in the earmarked funds.
15. INTRAGOVERNMENTAL COSTS AND EARNED REVENUE
Intragovernmental costs and earned revenue reflect transactions in which both the buyer and seller are
Federal entities. Revenue with the public reflects transactions for goods or services with a non-Federal
entity. The purpose for this classification is to enable the Federal Government to prepare consolidated
financial statements. The following table provides earned revenues, gross cost, and net program revenue.
						 2010			 2009
Numismatic Production and Sales
Cost:
 Intragovernmental:
   Selling, General and Administrative			 $    20,140		 $    18,599
   Imputed Costs					                           4,335		       2,367
 Total Intragovernmental Costs			              24,475		      20,966
 Public:
   Cost of Goods Sold				                   3,069,173		   1,974,075
   Selling, General and Administrative			      64,110		      59,864
 Total Public Cost					                     3,133,283		   2,033,939
Gross Cost					                             3,157,758		   2,054,905
Revenue:
 Intragovernmental:
   Rent Revenues					                          10,790		      10,068
   Other Intragovernmental Revenues			             65		         146
 Total Intragovernmental Revenues			           10,855		      10,214
 Public						                               3,239,989		   2,099,222
 Total Earned Revenue				                   3,250,844		   2,109,436
Net Program Cost (Revenue)				            $ (93,086)		  $ (54,531)

						
Numismatic Production and Sales of Circulating Coins
Cost:
 Intragovernmental:
   Selling, General and Administrative			            $         549		               $      684
 Total Intragovernmental Costs			                              549		                      684
 Public:
   Cost of Goods Sold				                                    3,444		                     3,258
   Selling, General and Administrative			                    1,747		                     2,203
 Total Public Cost					                                      5,191		                     5,461
Gross Cost					                                              5,740		                     6,145
Revenue:
 Public						                                                5,740		                     6,145
 Total Earned Revenue				                                    5,740		                     6,145
Net Program Cost (Revenue)				                       $           –		               $         –




                                            65
						 2010			 2009
Circulating Production and Sales
Cost:
 Intragovernmental:
   Selling, General and Administrative			              $  12,608		 $  15,043
   Imputed Costs					                                      9,844		     9,466
 Total Intragovernmental Costs			                         22,452		    24,509
 Public:
   Cost of Goods Sold				                                220,932		   225,556
   Selling, General and Administrative			                 65,559		    83,078
   Other Costs and Expenses (Mutilated and Uncurrent)	     8,414		    16,700
 Total Public Cost					                                  294,905		   325,334
 Gross Cost					                                         317,357		   349,843
Revenue:
 Public						                                            317,357		   349,843
 Total Earned Revenue				                                317,357		   349,843
Net Program Cost					                                  $       –		 $       –

Net Program Cost (Revenue) Before Protection of Assets	   $   (93,086)		          $    (54,531)

Protection of Assets
 Public:
   Protection Cost					                                   $   41,547		            $    41,102
 Total Earned Revenue				                                 $        3		            $         –
 Net Cost of Protection of Assets			                      $   41,544		            $    41,102

 Net Cost (Revenue) from Operations			                    $   (51,542)		          $    (13,429)

16. EARNED REVENUE AND OTHER FINANCING SOURCE (SEIGNIORAGE)
The Statement of Net Cost reflects the earned revenue and corresponding gross costs for Circulating
Production and Sales and for Numismatic Production and Sales of Circulating Coins. Circulating Pro-
duction and Sales represents coin sales to the FRB, and Numismatic Production and Sales of Circulating
Coins represents sales of circulating coins to the public (i.e., numismatic customers). SFFAS Number
7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and
Financial Accounting, limits the amount of net program revenue from production of circulating coins to
the cost of metal, manufacturing, and transportation. OMB Circular A-136 defines the treatment of other
financing sources on the Statement of Changes in Net Position, particularly as it relates to seigniorage.
Therefore, on the Statement of Net Cost, earned revenue is recognized only to the extent of the gross cost
of production. The difference between those costs and the face value of the coin is an “Other Financing
Source” referred to as seigniorage. Any revenue over face value for circulating coins sold as numismatic
items is considered earned revenue and included in the category Numismatic Production and Sales on
the Statement of Net Cost.
The following chart reflects the two components of the receipts from the sale of circulating coin – the
earned revenue from the Statement of Net Costs and Seigniorage from the Statement of Changes in Net
position for the year ended September 30:
						 2010			 2009
Revenue-FRB					            $ 317,357		 $ 349,843
Seigniorage-FRB					          300,887		   427,768
Total Circulating Coins				 $ 618,244		 $ 777,611

Revenue-with the public				                               $    5,740		            $     6,145
Seigniorage-with the public				                               11,927		                 19,300
Total Numismatic Sales of Circulating Coins		             $   17,667		            $    25,445

Total Seigniorage					                                    $   312,814		           $   447,068
                                              66
17. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
The United States Mint receives apportionments of its resources from OMB. An apportionment is a
plan approved by OMB to spend funds as directed by law. All United States Mint obligations are
classified as reimbursable, as they are financed by offsetting collections received in return for goods
and services provided. OMB usually uses one of two categories to distribute budgetary resources.
Category A apportionments distribute budgetary resources by fiscal quarters. Category B apportion-
ments typically distribute budgetary resources by activities, projects, objects, or a combination of these
categories. The United States Mint has only category B apportionments.
18. EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, requires an explanation of material differences between the
Statement of Budgetary Resources (SBR) and the related actual balances published in the Budget of
the United States Government (President’s Budget). The President’s Budget for fiscal year 2010 is
expected to be published in February 2011 and made available through OMB. Therefore, the analysis
presented here is for the prior year (FY 2009) “actual” figures published in the President’s budget in
February 2010. The following chart displays the comparison of the FY 2009 SBR and the actual FY
2009 balances included in the FY 2011 President’s Budget.
							 September 30, 2009
						 Statement of Budgetary	President’s
						 Resources		Budget
									                                             (rounded to millions)
United States Mint Public Enterprise Fund
Total Budgetary Resources				             2,528,180		    2,528
Status of Budgetary Resources:
  Obligations Incurred				                2,282,497		    2,282
  Unobligated Balances-available			         245,683		      246
Total Status of Budgetary Resources			    2,528,180		    2,528
Net Outlays					                            161,065		      161

19. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
The United States Mint PEF establishes that all receipts from United States Mint operations and
programs, including the production and sale of numismatic items, the production and sale of circulating
coinage, the protection of government assets, and gifts and bequests of property, real or personal, shall
be deposited into the United States Mint PEF and shall be available without fiscal year limitations. Any
amount that is in excess of the amount required by the United States Mint to cover obligations of the
PEF shall be transferred to the Treasury for deposit as miscellaneous receipts. At September 30, 2010
and 2009, the United States Mint transferred excess receipts to the Treasury General Fund of $388
million and $475 million, respectively.
20. HEDGING PROGRAM
At September 30, 2010 and 2009, hedging activity of $33.1 million and $88.0 million included in
inventory represents the value of the silver sold to the trading partner and not yet sold by the United
States Mint and, therefore, not repurchased from the trading partner. In FY 2010, the United States
Mint recorded an unrealized gain from hedging activity of $2.5 million, compared with $43 thousand
in FY 2009.




                                            67
21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
						                                                  For The Years Ended September 30,
						 2010			 2009
Resources Used to Finance Activities:
 Budgetary Resources Obligated
   Obligations Incurred				                           $ 3,670,761		                $ 2,282,497
   Less: Spending Authority from
     Offsetting Collections and Recoveries		            3,549,070		                  2,512,322
 Net Obligations					                                     121,691		                   (229,825)
 Other Resources
   Transfers to the Treasury General Fund On-Budget	       (13,000)		                    (35,000)
   Transfers to the Treasury General Fund Off-Budget	    (375,000)		                   (440,000)
   Imputed Financing from Costs Absorbed by Others	         14,180		                      11,834
   Other Financing Sources (Seigniorage)		                312,814		                     447,068
   Transfers in without reimbursement			                     –			                            830
 Net Other Resources Used to Finance Activities		          (61,006)		                    (15,268)
Total Resources Used to Finance Activities		                60,685 		                  (245,093)

Resources Used to Finance Items Not Part
of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods,
    Services and Benefits Ordered but Not Yet Provided	            43,347		              (61,195)
  Resources that Fund Expenses Recognized in Prior Periods	         –			                  (2,287)
  Resources that Finance the Acquisition
    of Assets or Liquidation of Liabilities			                    370,845		             468,837
  Other						                                                      (14,593)		            (35,118)
  Total Resources Used to Finance Items
    Not Part of the Net Cost of Operations			                      399,599		             370,237
Total Resources Used to Finance the Net Cost of Operations        (338,914)		           (615,330)

Components not Requiring or Generating
 Resources in the Current Period
 Depreciation and Amortization			                                  32,665		              34,226
 Revaluation of Assets				                                         (1,204)		                623
 Other						                                                      255,911		             567,052
 Total Components of Net Revenue from Operations
   that will not Require or Generate Resources		                  287,372		             601,901
Total Components of Net Revenue from Operations
 that will not Require or Generate Resources
 in the Current Period				                                        287,372		             601,901
Net Revenue from Operations			                                $   (51,542)		        $   (13,429)

22. Undelivered Orders at the End of the Period
Budgetary resources obligated for undelivered orders as of September 30, 2010 and 2009 were
$139,762 and $95,487, respectively.




                                                68
Required Supplementary Information (Unaudited)
For the Years Ended September 30, 2010 and 2009

Introduction
This section provides the Required Supplemental Information as prescribed by the Office of Management and Budget
(OMB) Circular A-136, “Financial Reporting Requirements” and Statement of Federal Financial Accounting
Standards (SFFAS) #29 Heritage Assets and Stewardship Land.
Heritage Assets
The United States Mint is steward of a large, unique and diversified body of heritage assets that demonstrate the
social, educational and cultural heritage of the United States Mint. These items include a variety of rare and
semi-precious coin collections and historical artifacts, and are held at various United States Mint locations. Some
of these items are placed in locked vaults within the United States Mint, where access is limited to only special
authorized personnel. Other items are on full display to the public, requiring little if any authorization to view.
Included in the heritage assets is the multi-use heritage asset of the building housing the United States Mint
at Denver. The United States Mint generally does not place a value on heritage assets, even though some of the coins
and artifacts are priceless. However, the assets are accounted for and controlled for protection and conservation
purposes. Heritage assets held by the United States Mint are generally in acceptable physical condition, and there
is no deferred maintenance on the United States Mint at Denver building.




                                                        69
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2010 and 2009 and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 2, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the United States Mint is responsible for establishing and maintaining effective
internal control. In planning and performing our fiscal year 2010 audit, we considered the United States
Mint’s internal control over financial reporting by obtaining an understanding of the design effectiveness of
United States Mint’s internal control, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the United States Mint’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the United States Mint’s internal control
over financial reporting. We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

                                                                       70
                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
We noted certain additional matters that we have reported to management of the United States Mint in a
separate letter dated December 2, 2010.

This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 2, 2010




                                                   71
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2010 and 2009, and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated December 2, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the United States Mint is responsible for complying with laws, regulations, and
contracts applicable to the United States Mint. As part of obtaining reasonable assurance about whether the
United States Mint’s financial statements are free of material misstatement, we performed tests of the
United States Mint’s compliance with certain provisions of laws, regulations, and contracts, noncompliance
with which could have a direct and material effect on the determination of the financial statement amounts,
and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the United States Mint.
However, providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the United States Mint’s financial
management systems did not substantially comply with the (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard
General Ledger at the transaction level.

We noted certain additional matters that we have reported to management of the United States Mint in a
separate letter dated December 2, 2010.
                                                                    72
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




December 2, 2010




                                                   73
Appendix I: FY 2010 Coin and Medal Products
Senator Edward William Brooke III Bronze Medal
Coin Awarded: October 28, 2009
Description: This Congressional Gold Medal honors Senator Edward William Brooke III for
his unprecedented and enduring service to our Nation. Brooke was the first African-American
elected by popular vote to the United States Senate. He served with distinction for two terms from
January 3, 1967, to January 3, 1979. The Medal’s obverse features an image of Senator Brooke.
The reverse depicts the United States Capitol Building at the top and the Massachusetts State House at the bottom
between two olive branches. The middle of the reverse design contains the inscription America’s Greatness
Lies in its Wondrous Diversity, Our Magnificent Pluralism has Made this Country Great,
Our Ever-widening Diversity will Keep us Great.

The Women Airforce Service Pilots Bronze Medal
Coin Awarded: March 10, 2010
Description: This Congressional Gold Medal honors the Women Airforce Service Pilots
(WASP) of World War II in recognition of their pioneering military service that led to reform in
the U.S. Armed Forces. The WASP was composed of the first women in history to fly American
military aircraft. They flew more than 60 million miles in every type of aircraft and on every
type of assignment performed by their male counterparts, except combat missions. The Medal’s
obverse depicts the portrait of a WASP and three pilots in period uniforms walking toward their aircrafts. An airborne
AT-6 is featured in the background. The reverse design features the three aircrafts the WASP flew during their training
at Avenger Field near Sweetwater, Texas: the AT-6, the B-26 (Martin Marauder) and the P-51.

2010 American Veterans Disabled for Life Commemorative Coin
Coin Release: February 25, 2010
Mintage Limit: 350,000 across all product options
Description: The American Veterans Disabled for Life Commemorative Coin Act was passed
by Congress and signed into law on July 17, 2008. The images on the 2010 American Veterans
Disabled for Life Silver Dollar capture our disabled veterans’ courage, loyalty and sacrifice. The
obverse features the legs of three veterans and the inscription THEY STOOD FOR US. The reverse design depicts a
forget-me-not flower at the base of a wreath of ribbons and oak branches. The oak branches represent strength, while
the forget-me-not is a widely recognized icon of those who fought and became disabled in World War I. Surcharges
from the program were authorized to be paid to the Disabled Veterans’ LIFE Memorial Foundation to support the
construction of the American Veterans Disabled for Life Memorial in Washington, D.C.

Boy Scouts of America Centennial silver dollar Commemorative Coin
Coin Release: March 23, 2010
Mintage Limit: 350,000 across all product options
Description: The Boy Scouts of America Centennial Commemorative Coin Act, signed into law
on October 8, 2008, commemorates the centennial anniversary of the Boy Scouts of America.
The largest youth organization in the United States, the Boy Scouts of America has 2.8 million
youth members and 1.1 million adult leaders. The coin’s obverse represents the Boy Scouts of
America of today, depicting a traditional Boy Scout as well as a younger Cub Scout and an older
female Venturer saluting. The reverse design features the Boy Scouts of America’s universal emblem. Surcharges
from the program were authorized to be paid to the National Boy Scouts of America Foundation, which will make
funds available to local councils for extension of scouting in hard-to-serve areas.
                                                          74
The Hot Springs National Park Quarter – arkansas
Coin Release: April 20, 2010
Mintage for Circulation: 69,600,000
Description: The Hot Springs National Park quarter is the first in the America the Beautiful
Quarters® Program. Hot Springs was first established as a national site on April 20, 1832 (4 Stat.
505), to conserve the water from the 47 springs that emerge from Hot Springs Mountain and
ensure that water was available for drinking and therapy. The quarter’s reverse image depicts the
façade of the Hot Springs National Park headquarters building with a thermal fountain in the foreground.

The Yellowstone National Park Quarter – wyoming
Coin Release: June 3, 2010
Mintage for Circulation: 68,400,000
Description: The Yellowstone National Park quarter is the second in the America the
Beautiful Quarters Program. First established as a national site on March 1, 1872 (17 Stat. 32),
Yellowstone National Park is home to a large variety of wildlife, including grizzly bears,
wolves, bison and elk. Preserved within the park are Old Faithful and a collection of the world’s most extraordinary
geysers. The reverse design features Old Faithful with a mature bull bison in the foreground.

The Yosemite National Park Quarter – california
Coin Release: July 26, 2010
Mintage for Circulation: 70,000,000
Description: The Yosemite National Park quarter is the third in the America the Beautiful
Quarters Program. Yosemite National Park is best known for its waterfalls, but within its nearly
1,200 square miles are deep valleys, grand meadows and ancient giant sequoias. It was first
established as a national site on October 1, 1890 (26 Stat. 650). The reverse image depicts the iconic El Capitan,
which rises more than 3,000 feet above the valley floor and is the largest monolith of granite in the world.

The Grand Canyon National Park Quarter – arizona
Coin Release: September 20, 2010
Mintage for Circulation: 70,200,000
Description: The Grand Canyon National Park quarter is the fourth in the America the Beautiful
Quarters Program. The Grand Canyon was first established as a national site on February 20, 1893
(27 Stat. 469). A powerful and inspiring landscape, the Grand Canyon spans 277 river miles and
is 18 miles wide and one mile deep. The reverse image features a view of the granaries above the Nankoweap Delta
in Marble Canyon near the Colorado River. Granaries were used for storing food and seeds (A.D. 500).




                                                         75
2009 Commonwealth of the Northern Mariana Islands quarter
Coin Release: November 30, 2009
Mintage for Circulation: 72,800,000
Description: The Commonwealth of the Northern Mariana Islands commemorative quarter-dollar
is the sixth and final coin in the United States Mint 2009 District of Columbia and U.S.
Territories Quarters Program. The reverse represents the islands’ wealth of natural resources.
Near the shore stands a large limestone latte, the supporting column of ancient indigenous Chamorro structures.
A canoe of the indigenous Carolinians represents the people’s seafaring skills. Two white fairy tern birds fly overhead.
A Carolinian mwar (head lei) composed of plumeria, langilang (Ylang Ylang), angagha (peacock flower) and teibwo
(Pacific Basil) borders the bottom of the design.

2009 lincoln one-cent coin – Presidency in Washington, DC
Coin Release: November 12, 2009
Mintage for Circulation: 327,600,000
Description: The fourth and last of the 2009 one-cent coin series commemorating the
bicentennial of President Lincoln’s birth and the 100th anniversary of the first issuance of the
Lincoln cent, shows the half-finished United States Capitol dome. The design symbolizes a
Nation torn apart by civil war and the resolve Lincoln showed as he guided the country through
its gravest crisis. It was in front of the rising dome that Lincoln began his Presidency and under the completed dome
that his body lay in state.

2010 Lincoln One-Cent Coin – 2010 and Beyond
Coin Release: February 11, 2010
Description: In 2010 and beyond, the Lincoln one-cent coin’s reverse design is emblematic of
President Abraham Lincoln’s preservation of the United States as a single and united country.
The reverse features a union shield, an important National symbol that dates back to the 1780s.
The shield’s 13 vertical stripes and the horizontal bar above with the inscription E PLURIBUS
UNUM—“out of many, one”—represent the union.

2010 Native American $1 Coin
Coin Release: January 25, 2010
Mintage for Circulation: 75,040,000
Description: The theme for the 2010 Native American $1 Coin is “Government—The Great
Tree of Peace.” The reverse design commemorates the Haudenosaunee (People of the Longhouse)
Confederation, also known as the Iroquois Confederacy, and its contribution to the history and
development of the United States. Early European settlers saw the Haudenosaunee and similar
Native American societies as successful examples of confederations practicing equality and democratic
self-government. The design features an image of the Hiawatha Belt with five arrows bound together. The Hiawatha
Belt is a visual record of the creation of the Haudenosaunee dating back to the early 1400s. The five arrows represent
the Five Nations or the Iroquois Confederacy, which consisted of the Mohawk, Oneida, Onondaga, Cayuga
and Seneca nations.




                                                          76
Zachary Taylor presidential $1 coin – Twelfth President, 1849 - 1850
Coin Release: November 19, 2009
Mintage for Circulation: 78,260,000
Description: Zachary Taylor was born in 1784 in Virginia. His Army career began at the age
of 23 and for the next 30 years, he served in many remote outposts from Louisiana to northern
Wisconsin. He led his forces to decisive victories in the Mexican-American War, which earned
him the nickname “Old Rough and Ready.” His reputation as a national hero made him an
attractive presidential candidate, and he won the general election in a three-candidate race. As the debate over slavery
in western territories threatened to tear the country apart, he was determined that the Union be preserved at all costs.

Margaret Taylor first spouse gold coin
and bronze medal – First Lady, 1849–1850
Description: Zachary Taylor once commented that Margaret “Peggy” Mackall Smith Taylor
“was as much of a soldier as I was.” She followed her husband during his military career,
creating homes for her family in tents, cabins and forts. During the Seminole War, Margaret
Taylor nursed wounded soldiers returning from the battlefield and counseled the young wives
of soldiers as they awaited news from the front. The reverse depicts Margaret Taylor comforting an injured soldier
during that war.

Millard Fillmore presidential $1 coin – 13th President, 1850 - 1853
Coin Release: February 18, 2010
Mintage for Circulation: 74,480,000
Description: Millard Fillmore was born in a log cabin on January 7, 1800, in Locke (now
Summerhill), New York. In 1828, Fillmore entered politics, serving as a New York state
assemblyman and later in the U.S. House of Representatives, where he chaired the powerful
Committee on Ways and Means. While comptroller of New York, he was elected to serve as
President Zachary Taylor’s vice president in 1848. Upon Taylor’s death in July 1850, Fillmore became president.
While Fillmore was in office, Congress passed the Compromise of 1850, a package of stop-gap measures which
effectively postponed the Civil War for a decade. After two unsuccessful bids for election to the presidency in his
own right, he retired to Buffalo, New York.

Abigail Fillmore first spouse gold coin
and bronze medal– First Lady, 1850–1853
Description: Born in 1798 in Saratoga County, New York, Abigail Powers Fillmore developed
a passion for learning early in life. While teaching at the New Hope Academy in Sempronius,
New York, she met her future husband Millard Fillmore. After their marriage, she continued
to teach for another two years until their first child was born, making her the first presidential
spouse to hold a paying job after her marriage. Perhaps her most lasting contribution as first lady
was her work in establishing a permanent White House library, for which President Fillmore asked Congress to
appropriate funds. With $2,000 authorized for the project, Mrs. Fillmore acquired several hundred volumes to start
the collection in a second floor oval parlor.




                                                          77
Franklin Pierce presidential $1 coin – 14th President, 1853 - 1857
Coin Release: May 20, 2010
Mintage for Circulation: 76,580,000
Description: Franklin Pierce was born on November 23, 1804, in Hillsboro, New Hampshire.
He was elected to the New Hampshire legislature, and later served in the U.S. House of
Representatives and Senate. Largely unknown to the public, Pierce was nominated for President
in 1852 by the Democratic Party. Partly because of his strong support for the Compromise of
1850, which attempted to mitigate the slavery issue and preserve the Union, Pierce was elected president and served
from 1853 to 1857. While he was President, the U.S. negotiated the Gadsden Purchase with Mexico, which gave the
U.S. land in present-day southern Arizona and New Mexico for a southern transcontinental railroad.

Jane Pierce first spouse gold coin
and bronze medal – First Lady, 1853–1857
Description: Jane Appleton Pierce was born on March 12, 1806, in Hampton, New Hampshire.
Two years into her husband’s presidency, Jane Pierce emerged from an extended period of
mourning after the death of her son. She began to attend receptions and dinner parties, and even
organized a few of her own. By 1856, she was venturing out in Washington, regularly visiting
the U.S. Capitol Building, where she sat in the Senate visitor’s gallery listening to heated
debates over the issue of slavery.

James Buchanan presidential $1 coin – 15th President, 1857 - 1861
Coin Release: August 19, 2010
Mintage for Circulation: 73,360,000
Description: James Buchanan was born on April 23, 1791, near Mercersburg, Pennsylvania.
During the War of 1812, he helped defend Baltimore against British attack. A lawyer and gifted
orator, he became a state legislator, and later served as a member of the U.S. House of
Representatives and Senate and as U.S. minister to Russia. In 1845, he became President James
K. Polk’s secretary of state. His later service abroad as U.S. minister to Great Britain insulated him from the growing
domestic controversy over slavery, helping him secure the Democratic Party’s nomination for President.

James Buchanan first spouse gold coin
and bronze medal – liberty
Description: President James Buchanan was not married. The obverse of the gold coin and
bronze medal issued for any President who served without a spouse features a design emblem-
atic of Liberty. James Buchanan’s Liberty coin’s obverse is a reproduction of the Liberty Head
Quarter Eagle designed by Christian Gobrecht and minted and issued from 1840 through 1907.
The reverse design depicts the future President as a boy working as a bookkeeper in his family’s
small country store.




                                                         78
2009 American Eagle Platinum Proof coin – To Form
a More Perfect Union
Coin Release: December 3, 2009
Mintage Limit: 8,000
Description: In 2009, the United States Mint introduced a new six-year platinum proof
coin program. This new series commemorates the core concepts of American democracy by
highlighting the preamble of the U. S. Constitution. It will honor the six principles found in the
preamble, beginning with To Form a More Perfect Union in 2009, followed by To Establish Justice in 2010,
To Insure Domestic Tranquility in 2011, To Provide for the Common Defense in 2012, To Promote the General
Welfare in 2013, and To Secure the Blessings of Liberty to Ourselves and our Posterity in 2014. Each theme was
inspired by narratives prepared by the Chief Justice of the United States at the request of the United States Mint.
The 2009 reverse design is emblematic of the principle To Form a More Perfect Union. It features four faces
representing the diversity of our Nation, with the clothing and hair weaving together to symbolize the formation
of a more perfect union. It also features an American Eagle privy mark, from an original “coin punch” identified
at the United States Mint at Philadelphia.
2010 American Eagle Platinum Proof coin – To Establish Justice
Coin Release: August 12, 2010
Mintage Limit: 10,000
Description: The 2010 coin design is emblematic of the theme To Establish Justice, the second
principle found in the preamble of the U.S. Constitution. The design features a blindfolded
justice-symbolizing impartiality-holding traditional scales and carrying a branch of laurel.
The coin also features the inscription Justice the Guardian of Liberty, from the east
pediment of the Supreme Court building.




                                                          79
